<html>
<title> - EXAMINING ONGOING CONFLICT IN EASTERN CONGO</title>
<body><pre>[Senate Hearing 113-136]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-136

                      EXAMINING ONGOING CONFLICT 
                            IN EASTERN CONGO

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 16, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE

86-147 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware       JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
CHRISTOPHER MURPHY, Connecticut      RAND PAUL, Kentucky
TIM KAINE, Virginia
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            CHRISTOPHER A. COONS, Delaware, Chairman        

BENJAMIN L. CARDIN, Maryland         JEFF FLAKE, Arizona
JEANNE SHAHEEN, New Hampshire        JOHN McCAIN, Arizona
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                RAND PAUL, Kentucky

                              (ii)        















                            C O N T E N T S

                              ----------                              
                                                                   Page

Borello, Federico, director, Investments, Humanity United, 
  Washington, DC.................................................    19
    Prepared statement...........................................    21
Coons, Hon. Christopher A., U.S. Senator from Delaware, opening 
  statement......................................................     1
Dizolele, Mvemba, strategy and advocacy fellow, Eastern Congo 
  Initiative, Washington, DC.....................................     9
    Prepared statement...........................................    12
Flake, Hon. Jeff, U.S. Senator from Arizona, opening statement...     3
Muhigirwa, Father Ferdinand, director, Centre d'Etudes Pour 
  I'Action Sociale, Kinshasa, Democratic Republic of Congo.......    15
    Prepared statement...........................................    17
Prendergast, John, cofounder, Enough Project, Washington, DC.....     4
    Prepared statement...........................................     6

              Additional Material Submitted for the Record

Paper by Anthony Gambino and Stephen Weissman submitted for the 
  record by Federico Borello.....................................    44
Eastern Congo Initiative Report submitted for the record by 
  Mvemba Dizolele................................................    52

                                 (iii)



 
                      EXAMINING ONGOING CONFLICT 
                            IN EASTERN CONGO

                              ----------                              


                        TUESDAY, APRIL 16, 2013

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:53 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons (chairman of the subcommittee) presiding.
    Present: Senators Coons, Durbin, and Flake.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I would like to call this hearing of the 
Senate Foreign Relations Committee Subcommittee for African 
Affairs to order.
    Good morning. Before we get started, of course, as we all 
know, yesterday three were killed and more than 140 injured 
when two bombs went off near the finish line of the Boston 
Marathon. I know yours does as well but my heart aches for 
everyone who has been affected by this tragedy. And as we look 
today at how violence 
has devastated, has broadly affected the eastern Congo, we, in 
the United States, are reminded that violence used as a tool of 

fear all around the world has a horrible impact on families and 
communities.
    For every villain who would take a life to further their 
ends, there are heroes ready to stand up to them and to stand 
with those who are victimized. And I trust, as we hear today 
from our panel of witnesses about their work, about the work of 
the NGOs with which they are associated, and about the work of 
many brave heroes in the eastern Congo, that we will be 
reminded of that shared commitment to stand up to violence.
    Today the African Affairs Subcommittee will focus on the 
ongoing and deadly conflict in eastern Congo which has forced 
millions of innocent people from their homes and contributed to 
decades of human rights violations, mass atrocities, horrific 
and widespread sexual- and gender-based violence, and disputes 
over conflict minerals.
    Before we begin, I would like to welcome Senator Jeff Flake 
of Arizona who has joined the subcommittee as ranking member. 
Senator Flake brings with him great expertise on Africa-related 
issues, both from his time of service in the House of 
Representatives and from his personal and business experience. 
This is our first hearing together of the 113th Congress, and I 
look forward to working in partnership with Senator Flake to 
advance our shared interests in promoting good governance, 
economic engagement, and security throughout sub-Saharan Africa 
over the next 2 years.
    I would also like to welcome our distinguished witnesses: 
John Prendergast, cofounder of the Enough Project; Mr. Mvemba 
Dizolele, strategy and advocacy fellow at the Eastern Congo 
Initiative; Mr. Federico Borello, a director of the Investment 
Team at Humanity United; and Rev. Ferdinand Muhigirwa--I am 
going to struggle, Father, aren't I, to get that exactly right. 
[Laughter.]
    Director of the Center of Study for Social Action and who 
has traveled to be with us here today from Kinshasa. Thank you, 
Father, and all of our witnesses for your effort to be with us 
here today and, in particular, Father, to speak with us more 
directly about current conditions on the ground.
    Since April 2012, more than 650,000 men, women, and 
children have been displaced mostly by recent fighting between 
the M23 rebel group and the Congolese Army in the North Kivu 
province of eastern Congo. The M23 has reportedly benefited 
from the illicit support of neighboring states, including 
Rwanda and to a lesser extent Uganda. There has been some 
accountability for such actions in the form of sanctions 
imposed by the United States and United Nations last year. I 
traveled to Kinshasa in February to learn more about this 
conflict, see the situation for myself, and support the 
regional framework for moving negotiations forward.
    The United States has made a substantial financial 
investment in addressing the ongoing humanitarian needs in the 
DRC, more than $4 billion since 2008, and we have a 
responsibility to ensure that money has been well spent and the 
gains that are being made are sustainable. It is essential the 
U.S. Government, in partnership with the international 
community and the regional governments and organizations, 
pursue an active policy to tackle the pervasive challenges 
endemic to eastern Congo.
    Unfortunately, instability and conflict are not new to the 
DRC. Estimates by NGOs indicate nearly 5.5 million people died 
from war-related causes in the DRC in the nearly decade from 
1998 to 2007 alone, making it the world's deadliest documented 
conflict since the Second World War.
    The lack of effective governance has contributed to decades 
of sexual- and gender-based violence and misuse and abuse of 
vast mineral wealth, both of which have been particularly 
concentrated in the east. According to the United Nations, 
roughly 160 women are raped every week in North and South Kivu, 
with members of the army frequently among the perpetrators. 
Mineral extraction of tin, tantalum, tungsten, and gold has 
also fueled the armed conflicts and human rights abuses in 
eastern provinces of the DRC and robbed the Congolese people of 
their opportunity for legitimate livelihoods.
    Despite this bleak context, of which these are just a few 
symptoms, the past few months now offer genuine reasons for 
hope and optimism. Since the signing of the Peace, Security, 
and Cooperation Framework in February, negotiations have 
continued. The United Nations has appointed a special envoy to 
the region and progress is being made to implement the 
framework. The U.N. Security Council recently authorized the 
deployment of a regionally led intervention force to engage in 
targeted offensive operations in the east and to augment the 
ongoing peacekeeping efforts led by MONUSCO. If this new force 
is effective, it can help usher in sustainable security gains 
that will contribute to long-term stability.
    Fighting perpetrated by the M23 has slowed since its 
withdrawal from Goma in November, and in another striking and 
unexpected development in mid-March, one of M23's commanders 
and indicted war criminal, Bosco Ntaganda, surrendered at the 
U.S. Embassy in Kigali and was transferred to the ICC at The 
Hague, a first in the history of the court.
    With the implementation of sanctions against M23 
supporters, there has been accountability. With the Dodd-Frank 
legislation, there has been progress, and with reforms adopted 
by the European Union, these in combination have also helped to 
shift some commercial incentives for mineral extraction from 
conflict to business activities that are legal and peaceful I 
hope we will further examine today.
    This hearing will evaluate recent steps taken by the 
international community to mitigate conflict and examine the 
root causes of instability in the eastern Congo, as well as 
current United States and international efforts to counter 
support from the M23 from state and regional actors. We will 
hear from a distinguished group of witnesses about their view 
of U.S. policy and request their concrete recommendations for 
action.
    Following today's hearing, I plan to present the 
administration with a list of key recommendations for changes 
or for a path forward to United States policy and to introduce 
a resolution calling for Secretary Kerry to appoint a special 
envoy to address the conflict in eastern Congo. That resolution 
will, hopefully, also call on the administration to do more to 
mobilize a comprehensive response in partnership with 
international and regional partners to move steadily toward 
peace and stability and to addressing root causes of conflict.
    I look forward to working with Senator Flake and hopefully 
other members of the subcommittee as well to further these 
efforts.
    And with that, I will turn it over to Senator Flake for his 
opening statement.
    Senator.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. Thank you, Mr. Chairman. I really appreciate 
the opportunity to be in this committee and to work with you. 
During my time in the House, I served on the Foreign Affairs 
Committee on the Africa Subcommittee most of that time, just 
taking a brief hiatus to be on the Appropriations Committee in 
the last 2 years. So it is great to be back on the African 
Subcommittee and I look forward to these and other issues.
    With its vast resources, the DRC holds the promise of being 
a success story. Over the past couple of years, you have seen 
how resources can certainly contribute to the economic growth 
of these countries, and in the DRC, they had a growth rate of 
about 6.5 percent last year with the economy.
    That is about where the good news ends. Ongoing conflict 
between the DRC Government and rebel factions in the east, 
coupled with the central government that obviously needs some 
more serious reforms, has halted the development of the DRC in 
general. The problem is compounded by regional neighbors 
throwing their weight behind some of the warring factions to 
serve their own interests. Regional stability in the area of 
the Great Lakes threatens to be undermined by this persistent 
conflict as well.
    Given the resources that we have brought to bear directly 
in terms of bilateral aid and contributions to the United 
Nations, we need to take a look to see how we can do this 
better to make sure that there are not other ways that we could 
proceed that would be of benefit to the DRC.
    Our witnesses today bring a unique perspective to this 
issue. I have no doubt that they will contribute to this debate 
at hand. I look forward to the testimony and thank you for 
coming here.
    Senator Coons. Thank you, Senator Flake.
    We are now going to turn to our panel of distinguished 
witnesses. We will work our way from right to left. And I would 
like to invite Mr. John Prendergast to make his statement to 
the subcommittee.

           STATEMENT OF JOHN PRENDERGAST, COFOUNDER, 
                 ENOUGH PROJECT, WASHINGTON, DC

    Mr. Prendergast. Well, thank you so much, Senator Coons, 
for your leadership, and welcome to the African Subcommittee, 
Senator Flake. Thanks for being here on a difficult day for 
America.
    Like you, Senator Coons, I traveled to Congo earlier in the 
year, just a couple months ago, and I want to begin with a very 
simple proposition, but a potentially and hopefully powerful 
one.
    There now exists a better chance for peace in eastern Congo 
than at any time since the current deadly cycle of conflict 
began in the mid-1990s. I think there are a number of variables 
that contribute to that, and in my oral testimony, I would like 
to focus on the five main reasons that peace is possible now 
and then six quick recommendations for how a new United States 
envoy that hopefully will be appointed the day that you enter 
that resolution can support--how that United States envoy can 
support peace in the Congo.
    The first reason why peace is possible, I think, is partly 
rooted in congressional action: the Dodd-Frank conflict 
minerals legislation; consumer pressure; and the resulting 
market adjustments. Market incentives for the warring parties 
are starting to shift away from the violent, illicit 
profiteering that has marked Congo's natural resource 
exploitation for centuries to beginning to move toward 
legitimate trade. Just like with the blood diamonds story, the 
profit incentive is shifting from war to peace. It is messy but 
it has begun. And being on the ground in eastern Congo just a 
couple months ago, it was evident everywhere, talking to people 
on the ground, minerals traders, and commanders in armed 
groups, all the folks that are remotely connected to it.
    The second reason why peace is possible is donor and World 
Bank pressure on Rwanda for alleged cross-border support for 
the M23 rebel group has weakened the M23, helped foster those 
divisions that led to the Bosco's move. And the main takeaway 
here is that the cross-border military aid that has been 
flowing across the border into Congo destabilizing that country 
so terribly for 
the last 15 or so years--that will never again go unnoticed, go 
unremarked, or go unaddressed. The new normal, I believe, is 
accountability, and that is partly due to the fact that this 
committee was so strong in its condemnation of that, 
particularly this last time.
    The third reason why peace is possible is that the 
International Monetary Fund has refused to renew aid to Congo 
until there are reforms that are enacted, transparency reforms. 
It gives a new impetus to addressing the governance issues 
within Congo.
    The fourth reason why peace is possible is, as you noted in 
your opening statement, Senator Coons, this new Peace and 
Security Framework that 11 countries have signed along with the 
United Nations Secretary General which basically provides a 
foundation for a sustained peace process. It is not a peace 
agreement. It is the basis of one and it just needs to be 
operationalized.
    The fifth reason why peace is possible in two words is Mary 
Robinson. I mean, I think that having a U.N. envoy of such 
stature and such commitment and a focus not just on peace but 
also on human rights and accountability is terribly important.
    So in the interest of time, I am just going to skip right 
to U.S. recommendations. Excited to hear, Senator Coons, that 
you are going to submit your own list to the executive branch 
following this hearing. So hopefully some of the stuff that we 
talk about here on the panel can make its way into your memo.
    So as a country with close relationships with all of the 
regional actors in the Great Lakes and continuing substantial 
international leverage, it is critical for the U.S. Government, 
I think, to play a more active role than we have in the past in 
any upcoming initiatives that are created out of that 
framework, out of what Mary Robinson does, and whatever follows 
from these Kampala talks. This is going to require far greater 
attention from senior policymakers and a step change in 
diplomatic engagement.
    Let us get to the recommendations.
    The first one. Help build a comprehensive peace process. We 
need an unrelenting investment in the creation of a legitimate 
peace process. There is going to be no solution without one, 
and it does not exist now. That should be a major focus of this 
subcommittee and this committee's work with the executive 
branch, that that be the focus of what we are doing.
    The second recommendation I would make is to deploy that 
high-level envoy quickly. We understand that there is someone 
that is on the radar, maybe even selected, maybe even agreed. 
If that is the case, deploy that person as soon as possible to 
the region, get them working with Mary Robinson, with the 
African regional states and the players on the ground to push 
the peace process forward.
    Third recommendation is sanctioning arms and minerals 
smugglers. We have just got to step up the game and create a 
cost for those that are going to undermine the effort to have 
peace in the region. We can provide you with names of all the 
people that are on various lists, U.N. group of experts list, 
even list of the NGOs, Human Rights Watch and others, that are 
working so hard to try to collect data on who is doing what to 
whom and why these arms continue to flow so freely.
    Fourth recommendation I would make is to convene a 
responsible investment initiative. The United States, we think, 
should work with the European Union to convene all of these 
companies in the supply chain, the electronics, the gold, the 
smelting, the mining companies, socially responsible investors, 
and all the NGOs that care about this stuff in a responsible 
investment initiative aimed at addressing risks and identifying 
opportunities to conflict-free economic investment in the Great 
Lakes region.
    The fifth recommendation I would make is to support 
accountability for war crimes, and that is, I think, shared 
universally amongst all of us, but now that Bosco has come in, 
it gives a chance--an opportunity--for the United States to 
step up our efforts in support of international law.
    And then finally, to provide aid to the disarmament, 
demobilization, and reintegration efforts, both the internal 
ones for the Congolese armed groups and the external ones for 
the Rwandans, the FDLR, that are destabilizing Congo today. We 
think that perhaps given this foreign intervention brigade's 
deployment, that it is possible that a relationship similar to 
what the United States has provided the region, particularly 
the Ugandan Government, with respect to counter LRA operations, 
might be possible with respect to the FDLR and M23 having some 
kind of support, direct training and operational support to the 
efforts to try to counter any of the spoilers and stragglers 
who do not get on the peace train going forward.
    Thanks very much for your time.
    [The prepared statement of Mr. Prendergast follows:]

                 Prepared Statement of John Prendergas

    Thank you, Chairman Coons and Ranking Member Flake, for the 
opportunity to testify at a crucial moment for the Democratic Republic 
of Congo and Africa's Great Lakes Region.
    There now exists a better chance for peace in eastern Congo than at 
any time since the current deadly cycle of conflict began in the mid-
1990s. A number of variables contribute to this unique opportunity.
    First, following the Dodd-Frank conflict minerals legislation, 
consumer pressure, and resulting market adjustments, the economic 
incentives of the warring parties are starting to shift away from 
illicit violent profiteering to legitimate trade. Just like with the 
blood diamonds saga, the profit incentive is shifting from war to 
peace.
    Second, donor and World Bank pressure on Rwanda for alleged cross-
border support for the M23 rebel group has weakened that group, and 
rising calls for accountability for war crimes helped pave the way for 
the surrender of one of Congo's worst warlords, Bosco Ntaganda.
    Third, the International Monetary Fund's refusal to renew aid to 
Congo until reforms are enacted provides a window to finally address 
critical governance issues within Congo.
    Fourth, the new ``Peace, Security and Cooperation Framework for the 
Democratic Republic of Congo and the Region,'' signed by United Nations 
Secretary General Ban Ki-moon and 11 African heads of state in 
February, provides a foundation upon which a sustained peace process, 
led by African partners and the United Nations, can be operationalized.
    Fifth, the recent appointment of Mary Robinson as the new U.N. 
envoy, combined with the hoped-for naming of a significant U.S. Special 
Envoy, will provide a major external boost to African regional peace 
efforts.
    The mere signing of agreements of course does not end the war in 
Congo. Rather, it provides a starting point for a new, comprehensive 
peace initiative led by U.N. envoy Robinson and key African actors. The 
United States can play a vital role in shepherding a credible and 
transparent peace process, but with new personnel in place or coming 
soon at the White House and Foggy Bottom, it will require a rethinking 
and expansion of the U.S. role in support of lasting peace in the Great 
Lakes.
Why it's different now
    Elaborating on the above, four important changes are underway in 
Congo today, giving an internationally supported peace initiative a 
much better chance than its more limited predecessors.
    First, U.S. and European consumer demands for a conflict-free 
minerals trade, the Dodd-Frank legislation on conflict minerals, and 
related corporate and regional reforms are making it harder to profit 
violently and illegally from mineral smuggling. For decades, all of the 
benefits of eastern Congo's vast mineral resource wealth have gone to 
those with the biggest guns--the Congolese Army, local militias, or 
neighboring countries. These minerals include gold, tin, tantalum, and 
tungsten, or 3Ts, used in cell phones, computers, and jewelry. Dodd-
Frank has made the price of untraceable conflict minerals one-third the 
price of tagged, traceable minerals, and thus it is no longer 
profitable for many armed groups and their backers to trade in conflict 
minerals. The Enough Project found in a study last year that because of 
these economic changes, armed groups are now earning approximately 65 
percent less from the minerals tin, tantalum, and tungsten. Gold still 
remains a challenge, however, because it is more easily smuggled, and 
this must be addressed through policy and corporate action, 
particularly from jewelers. If the commercial incentives for the 
minerals trade can continue to shift from violent, illegal extraction 
to peaceful, legal development, Congo could enjoy a transition similar 
to those experienced by West African countries plagued by blood diamond 
wars a decade ago.
    Second, for the first time, the international community is imposing 
meaningful consequences for cross-border support to armed groups and 
for a lack of reform. Regional support for armed groups inside eastern 
Congo has been a staple of the ongoing cycle of war. Rwanda strenuously 
denies involvement, but some donors have suspended certain aid programs 
to that nation and will continue to do so until the evidence shifts 
toward solutions. The International Monetary Fund's refusal to renew 
aid to Congo until transparency reforms are enacted has placed Kinshasa 
under pressure to transform its economic policies and governing 
institutions.
    Third, calls for international justice have intensified inside 
Congo and beyond, and accused war criminals are beginning to face 
sanctions. Until recently, accountability for war crimes was a distant 
part of the discussion despite some of the worst crimes against 
humanity being committed globally. Bosco's surrender ups the ante and 
provides some potential momentum for further action.
    Fourth, the reform of a U.N. peacekeeping mission that costs more 
than $1 billion is under way. A new force intervention brigade has been 
created, garnering troops from African nations to respond directly to 
the threat of illegal armed groups in eastern Congo. This brigade has 
been given a unique mandate by the U.N. to engage in offensive action 
against these groups in the name of stability and civilian protection. 
Refocusing the mission on eradicating the worst armed groups, 
demobilizing rank-and-file combatants and helping to reform Congo's 
army would go much further than the present mandate.
    Despite the progress, closed-door talks are now taking place in 
Kampala, Uganda between Congo and the M23 rebel group - with no 
involvement of political parties, civil society elements (including 
women who have borne the brunt of the war), religious leaders, or other 
armed groups. Each time that rebels have taken or threatened Goma over 
the past decade, hasty backroom negotiations have produced deeply 
flawed deals that have reduced the military pressure on Congolese 
President Joseph Kabila's weakened government and permitted the alleged 
Rwandan-backed rebels to administer strategic eastern zones and oversee 
taxation and resource looting. There is serious risk that a deal from 
the Kampala talks will resemble the failed deals that came before it 
through similar processes. The talks must be broadened into a wider 
peace process.
A two-track peace process: regional talks and Congolese reform
    The U.N. Framework lays a foundation for a successful peace process 
that should contain two main elements: regional negotiations and 
institutional reform within Congo. The Framework commits Congo and its 
neighbors to deepen regional economic integration, increase judicial 
cooperation, and respect legitimate regional security interests. In 
order to turn these commitments into lasting change, Special U.N. Envoy 
Robinson and her African partners should lead regional negotiations--
particularly between Congo, Rwanda, and Uganda--over key economic, 
security, and accountability issues. Competition over control of 
natural resources has been a critical driver of conflict in the region, 
as armed groups backed by regional governments have sustained 
themselves through profits from the illicit trade in natural resources. 
It will thus be critical to incorporate economic drivers into the 
regional talks, particularly on how Congo, Rwanda, and Uganda can 
cooperate to more fully cut off smuggling and boost the legitimate, 
conflict-free trade in natural resources and increase transparent 
government revenue flows that can benefit all three countries.
    Security issues will also be critical in the talks. Building on and 
in support of the U.N. Force Intervention Brigade agreed to by the U.N. 
Security Council on March 28, the countries should discuss and agree on 
a comprehensive security strategy to deal with illegal militias. 
Finally, it is critical for the peace process to foster accountability 
for those who have committed mass atrocities. Rather than repeating the 
practice from past processes of allowing human rights abusers to gain 
positions of power in government or the military, the peace process 
should ensure that the region cooperates to bring to justice those most 
responsible for war crimes and crimes against humanity. A possible 
upcoming deal between Congo and M23 in Kampala is at risk of mirroring 
past agreements that reinforced impunity and led to renewed conflict. 
This deal must be different and leave out those most responsible for 
atrocities.
    The second track should focus on neglected issues within Congo that 
continue to drive the war at a deeper level. The U.N. Framework commits 
Congo to undertake institutional reform on critical issues that fuel 
continued instability, such as decentralization, security sector 
reform, and justice reform. To operationalize the Framework, a 
multifaceted reform process is needed with proposals from the Congolese 
Government, political parties, and civil society. To buttress this 
process and following President Joseph Kabila's announced intention to 
initiate a national dialogue, there is a need for an impartially 
facilitated Congolese national dialogue that respects the Constitution 
and allows civil society, government, key armed groups, and political 
parties to discuss and debate reform proposals. This is critical to 
ensure that an eventual agreement might have the buy-in of a wide 
swathe of stakeholders. The U.N. Special Representative of the 
Secretary General to Congo, or SRSG, mandated to help the Congolese 
reform process in the U.N. framework, should work closely with Kinshasa 
to ensure there is an impartial facilitator of the process and that it 
is inclusive, particularly with women and gender issues fully 
represented.
Recommendations to the U.S. Government
    As a country with close relationships with all regional players and 
substantial international leverage, it is critical for the U.S. 
Government to play a much more active role in the upcoming initiatives. 
This will require far greater attention from senior policymakers, a 
step-change in diplomatic engagement in the region, and concentrated 
focus on areas of U.S. leverage, especially efforts to transform the 
trade in natural resources from a driver of violence into a catalyst 
for regional peace.
    Therefore, I strongly recommend that the United States urgently 
take the following steps:

    1. Help Build a Comprehensive Peace Process: The Kampala-based 
talks are not enough. The U.S. should work with African partners, U.N. 
Envoy Robinson, and the U.N. SRSG in Congo to build a peace process to 
operationalize the commitments made in the U.N. Framework. Peace 
efforts need proper staffing and coordinated leverage, two areas for 
which the U.S. can provide key support.
    2. Deploy a High-Level Envoy Quickly: If Beltway whispers are true, 
a high-level U.S. envoy has already been selected. President Obama and 
Secretary Kerry should deploy that envoy as soon as possible to 
buttress U.N. Envoy Robinson and African efforts to build the 
comprehensive effort for peace. The envoy should use incentives, strong 
relationships, and leverage to help move the parties toward 
constructive engagement in the process.
    3. Sanction Arms and Minerals Smugglers: The U.S. Government and 
U.N. Security Council should place targeted sanctions against officials 
and arms and minerals smugglers in Congo, Rwanda, and Uganda that are 
violating the U.N. arms embargo on Congo. In particular, the U.S. 
should press to have the owners of gold smuggling businesses on U.N. 
and U.S. lists sanctioned, as they continue to aid and abet violence by 
M23, the FDLR, and other armed groups. There are five key gold 
smugglers that have easily gotten around sanctions on their businesses 
by changing business names, so it is time to sanction the owners of 
these companies.
    4. Convene a Responsible Investment Initiative: The U.S. should 
work with the European Union to convene key electronics, gold, 
smelting, and mining companies, socially responsible investors, and 
NGOs in a responsible investment initiative aimed at addressing risks 
and identifying opportunities to conflict-free economic investment in 
the Great Lakes region. This should take place parallel to the peace 
talks through a series of minisummits and a high-level conference and 
build on lessons from Northern Ireland and Central America.\1\ The 
initiative would gather 
potential investors in natural resources, infrastructure, and financial 
services and design further responsible trade partnerships, as well as 
identify obstacles to 
responsible investment and brainstorm solutions. With such a process 
going on parallel to the peace talks, the African governments would see 
outside interest in a 
responsible economic trade, thus creating further incentives for 
progress in the talks. The Public Private Alliance might be a good 
vehicle for helping to organize this.
---------------------------------------------------------------------------
    \1\ Salili Tripathi and Canan Gunduz, ``A Role for the Private 
Sector in Peace Processes? Examples, and Implications for Third-party 
Mediation,'' background paper, The Oslo Forum Network of Mediators, 
2008, available at http://www.hdcentre.org/files/Salil Tripathi 
Mediation Business WEB.pdf (accessed March 2013); Mats Berdal and Nader 
Mousavizadeh, ``Investing for Peace: The Private Sector and the 
Challenges of Peacebuilding,'' Survival Vol. 52, No. 2 (April-May 
2010).
---------------------------------------------------------------------------
    5. Support Accountability for War Crimes: In the aftermath of Bosco 
Ntaganda's surrender, the Obama administration should increase support 
to the International Criminal Court to investigate and indict 
additional leaders of the M23, FDLR and other armed groups most 
responsible for war crimes and crimes against humanity, and the 
administration should work with regional partners to facilitate their 
arrest upon indictment.
    6. Provide Aid to DDR Efforts: The U.S. should work with the U.N. 
to develop enhanced disarmament, demobilization, repatriation, 
reintegration, and resettlement programs, or DDR/RR, and provide 
special forces training to enhance the capacity of the new U.N. force 
intervention brigade, along the lines of the model for the Lord's 
Resistance Army.
                               conclusion
    After nearly 20 years of war, peace will not come overnight to 
eastern Congo. It has been one of the world's most protracted 
conflicts, but there may finally be a glimmer of hope to end it because 
the policy context for the war is changing. Ntaganda's surrender, the 
new economic realities for armed groups, and the signing of the U.N. 
Framework can lay the groundwork for a peace process, if the 
international community sufficiently invests in such an initiative. The 
issues to be dealt with in a genuine peace process are complex, and it 
will require painstaking mediation work to hammer out agreements on 
economic, security, and political issues that continue to drive 
conflict. Such an effort will require the sustained attention of actors 
from the U.N. Secretary General to local civil society activists. The 
U.S. role will be key in creating coordinated international leverage 
and buttressing the forces for peace on the ground in Congo.
    The reward of these trials and tribulations will be great: peace in 
eastern Congo, one of the most convoluted and destructive conflicts the 
world has ever known.

    Senator Coons. Thank you, Mr. Prendergast, for those 
particularly spirited and focused remarks and recommendations.
    Mr. Dizolele, we welcome your comments.

  STATEMENT OF MVEMBA DIZOLELE, STRATEGY AND ADVOCACY FELLOW, 
            EASTERN CONGO INITIATIVE, WASHINGTON, DC

    Mr. Dizolele. Chairman Coons, Ranking Member Flake, on 
behalf of Eastern Congo Initiative, I thank you for the 
invitation and honor to testify before your subcommittee. I 
commend you for your continued interests in developments in the 
Democratic Republic of Congo and appreciate your continued 
support of the people of Congo.
    Mr. Chairman, after two decades of violence and political 
upheaval in DRC, we realize how easy it might be for U.S. 
leaders and the world to give up on Congo. From MONUSCO to the 
FARDC to the Congolese Government, it seems as though none of 
the major institutions are functioning well or are truly 
committed to lasting peace. But I want to begin my testimony 
today by offering a slightly different perspective.
    From ECI's view on the ground in Goma, the reality is more 
hopeful than the headlines suggest. The Congolese are among the 
world's most resourceful people and a people who refuse to be 
defined by circumstance or history. They are committed to a 
positive change in their country and demonstrate that 
commitment every day. The massive political mobilization and 
voter turnout during the 2011 elections, despite overwhelming 
challenges, including physical intimidation in some areas, is a 
testament to their desire to shape a better future for 
themselves and their families.
    DRC is home to a vibrant civil society that is second to 
none in Africa. Civil society and faith-based groups have been 
substituting for this dysfunctional state across Congo 
throughout many years of crisis. Not only do civil society 
organizations provide services, they mobilize the population 
for political change.
    And ECI today is an investment in their vision. This is why 
ECI's work is focused on developing and strengthening 
partnerships with civil society organizations and providing 
them with technical and financial support as they strive to 
overcome the circumstances that impede their growth. We are not 
alone in this, as there are many other foreign organizations 
working with individual civil society entities, and the results 
are palpable.
    So on behalf of ECI, I am here to ask the United States 
Senate to stand alongside civil society heroes in Congo. We are 
not asking for more money. However, we are asking for American 
leadership, particularly more leadership, as it will take that 
to bring all parties together for peace and end this 
instability in the region.
    Last April, Eastern Congo Initiative and a coalition of 
Congolese and international NGOs published a report called 
``Taking a Stand on Security Sector Reform.'' Mr. Chairman, 
with your permission, I will ask consent to submit the report 
and my written remarks for the record today.
    Senator Coons. Without objection, they will be included. 
Thank you.
    Mr. Dizolele. The story of M23 offers three simple but 
important lessons. The first lesson is that rushed, ad hoc, and 
partial security sector reform does not work.
    The second lesson is that military integration of rebel 
groups cannot be a substitute for a real peace process. We are 
here because of a botched peace process that quickly integrated 
groups that should not be integrated.
    The third lesson is, therefore, that unless the structural 
problems are addressed, the FARDC is unlikely to ever evolve 
into a professional and effective military.
    While it is true that much of the responsibility for lack 
of progress on SSR rests with the Congolese authorities, 
MONUSCO bears part of the responsibility. The fall of Goma last 
year is the apex of a long string of U.N. peacekeepers' failure 
to protect civilians, despite a clear and strong mandate to do 
so.
    Beyond the United Nations, the international community also 
has largely failed to act, despite widespread agreement that 
military reform is the foundation for progress across all 
conflict resolution, state-building, and development objectives 
in the DRC. Over the past decade, security sector reform has 
been crippled by poor coordination among donors who are driven 
primarily by competing short-term imperatives and objectives.
    But despite our dismal progress on SSR, we are seeing 
glimmers of hope that a changing international political 
environment may open opportunities for real reform.
    The magnitude of the task ahead requires that it be a joint 
effort and that all partners pull their weight. Donors must 
build momentum toward progress by making high-level political 
commitments to support military reform and back them with 
immediate, practical, coordinated support. The road to 
successful security sector reform goes through the following 
steps.
    The United States should unambiguously support MONUSCO to 
fulfill its mandate as expanded in U.N. Resolution 2098, 
particularly the appointment of the special envoy who needs our 
full support.
    In the region, members of the Contact Group need to convene 
an immediate meeting of an expanded Contact Group which will 
include the Southern African Development Community, the African 
Union, the International Conference on the Great Lakes Region 
to discuss the implementation of the renewed military reform, 
but also the meeting could serve as a platform and a forum for 
Mary Robinson to discuss her plan of action and engage the 
leaders in a formal setting.
    In the meantime, the United States should engage the 
Government of DRC, in partnership with MONUSCO and other 
donors, to draw up a comprehensive security sector reform 
blueprint in a practical and inclusive process which involves 
civil society and 
establishes a robust working-level coordination and followup 
mechanism.
    In support of that SSR blueprint, the United States should 
encourage our NATO allies and other key partners to provide 
police, judicial, and military training to the DRC to help 
bolster its capacity to protect its people and preserve its 
territorial integrity.
    U.S. Africa Command successfully trained a battalion that 
performed well in LRA-affected areas in Orientale province. As 
part of the comprehensive SSR blueprint, the United States 
should increase its military assistance to DRC, including 
training of more units of FARDC and greater access to United 
States military training institutions for Congolese officers.
    At the same time, the DRC Government has to learn from past 
failures and avoid easy, expedient stop-gap measures that 
reduce tensions in the short run but worsen the crisis in the 
long run. The M23 may be reintegrated into the FARDC. For many, 
this will be the third time they join the FARDC only to 
subsequently desert. War criminals should not be integrated 
into the Congolese military. The DRC cannot import rebel unit 
structures and chains of command into the FARDC and expect 
different results.
    And finally, the Government of DRC, the regional states, 
and moderators of the Kampala talks have to ensure that the 
terms of any peace deal with the M23 respect human rights 
considerations and break parallel chains of command.
    With recent commitments from the United Nations, we as a 
community of nations have an opportunity to ensure that 2013 is 
not another year lost for the Congolese people. Both through 
our Embassy in Kinshasa and here in Washington, the United 
States can use its political, diplomatic, and moral capital to 
invest in a people who continue to show courage, determination, 
and commitment to build a better future for their country. ECI 
believes there is no better investment we can make than the 
success of the Congolese people.
    I thank you.
    [The prepared statement of Mr. Dizolele follows:]

              Prepared Statement of Mvemba Phezo Dizolele

    Chairman Coons, Ranking Member Flake, and distinguished members of 
the Subcommittee on Africa, on behalf of Eastern Congo Initiative, I 
thank you for the invitation and honor to testify before your 
subcommittee. I commend you for your continued interest in developments 
in the Democratic Republic of Congo and I appreciate your continued 
support of the Congolese people.
    Mr. Chairman, after two decades of violence and political upheaval 
in DRC, we realize how easy it might be for U.S. leaders and the world 
to give up on Congo. From MONUSCO, to the FARDC to the Congolese 
Government, it seems as though none of the major institutions are 
functioning well or are truly committed to a lasting peace. But I want 
to begin my testimony today by offering a slightly different 
perspective.
    From ECI's view on the ground in Goma, the reality is more hopeful 
than the headlines suggest. The Congolese are among the world's most 
resourceful people, and a people who refuse to be defined by 
circumstance or history. They are committed to positive change in their 
country and demonstrate that commitment every day. The massive 
political mobilization and voter turnout during the 2011 elections 
despite overwhelming challenges, including physical intimidation in 
some areas, is a testament to their desire to shape a better future for 
themselves and their families.
    DRC is home to a vibrant civil society that is second to none in 
Africa. Civil society and faith-based groups have been substituting for 
the dysfunctional state across Congo throughout the many years of 
crisis. Not only do civil society organizations provide services, such 
as education, health, economic development and justice, where the state 
fails, they mobilize the population for political change. Civil society 
organizations are at the forefront of the struggle for a robust 
democratic process. They drive the vote, shape the political debate and 
induce reforms, including legislation against sexual violence, the 
audit of mining contracts, the revision of the mining code, and the 
restructuring of the national electoral commission. They envision a 
better future for their country and they are doing everything they can 
to craft it by their own hands.
    ECI is an investment in their vision. This is why ECI's work is 
focused on developing and strengthening partnerships with civil society 
organizations, and providing them technical and financial support as 
they push to overcome the circumstances that impede their growth. We 
are not alone, as there are many other foreign organizations working 
with individual civil society entities, and the results are palpable.
    Our partners in the agricultural sector, amid a culture of 
corruption and the constant threat of violence, have trained 
smallholder farmers in improved techniques and built capacity to 
improve the quality and yield of their crops. This kind of progress may 
seem incremental, but those increments mean that many will be able to 
afford better health care for their families and schooling for their 
children. If properly farmed, DRC could feed one-third of the world's 
population, and we believe if these farmers are given a chance, it can 
become the breadbasket of Africa.
    And when M23 overtook Goma last fall, it was not MONUSCO or FARDC 
who guided civilians to safety, but courageous and resourceful citizen-
journalists. For 2 days straight, the 14 staff members of ECI's 
partner, Mutaani FM, locked themselves in their station and remained 
on-air as an independent source of information for the city and 
surrounding communities. Mutaani also opened the airwaves for listeners 
to share real-time updates from their neighborhoods, and send messages 
of reassurance to those whose homes were suddenly at the center of a 
battlefield. During this time of crisis and in the absence of 
government support, Mutaani broadcasts became a timeline of trusted 
information and a lifeline of human contact.
    These are community leaders who, with limited resources, are 
literally saving lives and keeping hope from fading. Progress is 
possible, but without lasting government reform civil society's 
progress is palliative care for a failing state. Community 
organizations can't raise an army or maintain law and order in their 
society.
    On ECI's behalf, I am here today to ask that the United States 
Senate stand alongside of these heroes. Finding a lasting solution to 
the cycle of violence and creating an environment in which the 
Congolese can grow and thrive does not require the expenditure of large 
sums of money or the deployment of boots on the ground. It does, 
however, require American political leadership--moral leadership even--
to bring the parties together to address the larger sources of 
instability in the region.
    The crisis that we are here today to discuss is a direct result of 
DRC's lack of competent and adequate security and law enforcement 
institutions. The ensuing insecurity affects all of DRC, taking 
different forms in various regions of the country. Recent events in 
Lubumbashi, where over 200 Mai-Mai militiamen armed with rudimentary 
weapons walked mostly unopposed past security forces to the U.N. 
headquarters, underscore the pervasiveness of insecurity. That these 
bandits breached the security of DRC's second-largest city and most 
important mining hub so easily is worrisome and may augur more such 
disturbing developments.
    Still, to date the most violent expression of insecurity centers in 
the eastern provinces of North Kivu, South Kivu, and Orientale, where 
successive waves of foreign invasions and the continued emergence and 
recycling of militias have caused the death of millions, displaced 
around 2 million civilians, and led to an overwhelming incidence of 
sexual violence and rampant looting of mineral resources. This brutal 
manifestation of state dysfunction and militia rule now also affects 
the civilian populations of northern Katanga.
    This reality shapes the daily lives of millions of Congolese across 
the country and exposes the pressing need for greater commitment to 
security sector reform. Practically all stakeholders, including 
President Joseph Kabila, the DRC Minister of Defense, the FARDC chief 
of staff, DRC's neighbors and the U.N. Secretary General have 
recognized the importance of security sector reform. This reform is 
often mentioned as a top priority by donors, and was named as the first 
commitment asked of the DRC Government in the Addis-Ababa framework 
agreement signed in February this year by 11 regional leaders.
    Last April, Eastern Congo Initiative and a coalition of Congolese 
and international NGOs called donors to action in a report titled 
``Taking a Stand on Security Sector Reform.'' A year later, almost 
nothing has been done. A followup report card on the recommendations of 
that report will be published this month by Eastern Congo Initiative--
it reveals failing grades.
    Mr. Chairman, with your permission, I would ask consent to submit 
the report and my written remarks for the record.
    The rhetoric of stakeholders and donors voicing support for 
security sector reform is no doubt genuine, but it is not matched by 
progress on the ground. The continued imperative for meaningful 
change--and the price of doing nothing--could not be clearer, 
tragically underlined by the events of 2012. The M23 rebellion was born 
in April 2012 following the desertion of hundreds of soldiers from the 
FARDC, in part over poor conditions--notably lack of pay and food, and 
political considerations. The new rebellion was led by individuals with 
long and bloody histories of desertion and abuse, who had been allowed 
to avoid justice and maintain parallel command structures inside the 
FARDC--most notoriously Bosco Ntaganda. The Congolese defense forces 
proved unable to defeat M23, despite an enormous advantage in numbers, 
their effectiveness limited by poor support to troops in the field--
some were reported to lack food on the front lines--incoherent 
leadership and poor morale, forcing them to desert their posts in the 
name of self-preservation.
    The cost has yet again been borne by Congolese civilians, hundreds 
of thousands of whom have been displaced by fighting. Many others were 
raped or killed. As the U.N. Secretary General has recognized ``. . . 
the recent crisis in eastern Democratic Republic of the Congo has again 
underlined the need to reform the security sector, notably the FARDC.'' 
It is time to revisit the issues.
    The story of the M23 offers three simple, but important lessons. 
The first lesson is that rushed, ad hoc and partial security sector 
reform does not work. The successive attempts to integrate former 
rebels--the Rassemblement Congolais pour la Democratie-Goma (RCD-G) and 
the Congres National pour la Defense du Peuple (CNDP)--ducked the most 
difficult and most important issues. Former rebels were not vetted for 
human rights abuses or other crimes. No coherent rationalization of 
rank for newly integrated fighters was undertaken. Like other FARDC 
soldiers, former rebels were not given sufficient material support or 
pay. Perhaps most importantly, former rebels were not inserted into a 
clear and well-respected command structure, allowing parallel loyalties 
and chains of command to persist.
    The second lesson is that military integration of rebel groups 
cannot be a substitute for a real peace process. Past attempts at 
integration were a product of ad hoc peace deals reflecting the 
immediate imperative of conflict resolution and behind-the-scenes 
political compromises. The ``mixage'' process for instance reflected 
the CNDP's refusal to disperse its fighting strength, and the Congolese 
Government's need to end the chaos and humiliation of fighting in the 
East. Likewise, the integration of the CNDP following the agreement of 
March 23, 2009, was a product of hidden negotiations between the 
Rwandan and Congolese Governments that allowed the CNDP to retain 
considerable influence in the East independent of formal FARDC command 
structures. In both cases, the fix was only temporary, buying a brief 
period of uneasy calm before fighting resumed.
    The problems highlighted above apply to the whole of the FARDC, not 
just to newly integrated elements. There are continual defections from 
the FARDC across the whole country, and the ill-discipline and abuses 
by FARDC personnel is well-documented and pervasive. Frightened 
communities with no protection are more likely to mobilize around a 
militia, causing further violence and chaos.
    The third lesson is therefore that, unless these structural 
problems are addressed, the FARDC is unlikely to ever evolve into the 
professional, effective military that all actors, Congolese and 
external, want to see.
    With regard to Security Sector Reform, 2012 was a lost year. In 
DRC, it had been anticipated that the 2011 elections would consolidate 
the democratic gains of 2006 and open up a political opportunity to 
move forward on much-needed reform. But the last elections were highly 
contested, creating tension between the majority in power and the 
opposition that have severely limited the government's ability to act, 
much less tackle the difficult challenges of security sector reform.
    While it is true that much of the responsibility for the lack of 
progress on SSR rests with the Congolese authorities, MONUSCO bears 
part of that responsibility. The fall of Goma last year is the apex of 
a long string of U.N. peacekeepers' failures to protect civilians 
despite a clear and strong mandate to do so. Without an effective 
peacekeeping presence, stabilization and security sector reform cannot 
take hold.
    Beyond the United Nations, the international community has also 
largely failed to act, despite widespread agreement that military 
reform is the foundation for progress across all conflict resolution, 
state-building and development objectives in the DRC. Over the past 
decade, security sector reform has been crippled by poor coordination 
among donors, who are driven primarily by competing short-term 
imperatives and objectives. This approach has yielded piecemeal 
interventions, and the resulting failures have led many to give up on 
systemic reform altogether.
    Despite our dismal progress on SSR to date, we are seeing glimmers 
of hope that a changing international political environment may open 
opportunities for real reform.
    First, following the recent violence, regional actors--notably, the 
Southern African Development Community--have collectively engaged in 
the DRC at a level not seen since the end of the transition in 2006. 
Second, Mary Robinson's appointment as the U.N. Special Envoy can 
provide a much-needed focal point and energy at the precise moment when 
the U.N. Security Council has unambiguously placed SSR at the heart of 
its work in the DRC.
    The magnitude of the task ahead requires that it be a joint effort 
and that all partners pull their weight. Donors must build momentum 
toward progress by making high-level political commitments to support 
military reform, and back them with immediate practical, coordinated 
support. The road to successful security reform goes through the 
following steps:

  <bullet> The United States should unambiguously support MONUSCO to 
        fulfill its mandate as expanded in U.N. Resolution 2098. The 
        U.N. system, particularly the permanent five members of the 
        Security Council, must ensure that MONUSCO and the U.N. Special 
        Envoy have full support and all the necessary resources to 
        fulfill their mandates.
  <bullet> In the region, members of the Contact Group need to convene 
        an immediate meeting of an expanded Contact Group, to include 
        the Southern African Development Community, the African Union, 
        and International Conference on the Great Lakes Region, to 
        discuss the implementation of renewed military reform. The 
        meeting may also serve as a platform and forum for Mary 
        Robinson, the newly appointed U.N. special envoy for the Great 
        Lakes Region, to present her plan of action to the Contact 
        Group.
  <bullet> In the meantime, the U.S. should engage the Government of 
        DRC, in partnership with MONUSCO and other donors, to draw up a 
        comprehensive security sector reform blueprint in a practical 
        and inclusive process, which involves civil society and 
        establishes a robust working-level coordination and followup 
        mechanism.
  <bullet> In support of that SSR blueprint, the U.S. should encourage 
        our NATO allies and other key partners to provide police, 
        judicial, and military training to the DRC, to help bolster its 
        capacity to protect its people and preserve its territorial 
        integrity.
  <bullet> U.S. Africa Command successfully trained a battalion that 
        performed well in LRA-affected areas in Orientale province. As 
        part of a comprehensive SSR blueprint, the U.S. should increase 
        its military assistance to DRC, including training of more 
        units of FARDC and greater access to U.S. military training 
        institutions for Congolese officers.
  <bullet> EUSEC and MONUSCO need to support the Government of DRC in 
        implementing a surge of support to the FARDC in the field. The 
        ISSSS has a remit to improve security and stability across the 
        East. MONUSCO has a mandate to protect civilians and collect 
        information on human rights abuses. A coordinated surge of 
        practical measures to improve the conduct and morale of the 
        FARDC is a vital factor in creating the conditions for 
        effective reform.
  <bullet> At the same time, the Government of DRC has to learn from 
        past failures and avoid easy, expedient stop-gap measures that 
        reduce tensions in the short run but worsen the crisis in the 
        long run. The M23 may be reintegrated into the FARDC. For many, 
        this will be the third time they join the FARDC, only to 
        subsequently desert. War criminals should not be integrated 
        into the Congolese military. DRC cannot import rebel unit 
        structures and chains of command into the FARDC and expect 
        different results.
  <bullet> And finally, the Government of DRC, Regional States, and 
        Moderators of the Kampala talks have to ensure that the terms 
        of any peace deal with the M23 respect human rights 
        considerations and break parallel chains of command.

    With recent commitments from the U.N., we as a community of nations 
have an opportunity to ensure that 2013 is not another year lost for 
the Congolese people. Both through our Embassy in Kinshasa and here in 
Washington, the U.S. can use its political, diplomatic, and moral 
capital to invest in a people who continue to show courage, 
determination and a commitment to build a better future for their 
country. ECI believes there is no better investment we can make than in 
the success of the Congolese people.

    Senator Coons. Thank you, Mr. Dizolele.
    And I would like to welcome Senator Durbin who has joined 
us for the hearing.
    Father Muhigirwa, we welcome your testimony now.

   STATEMENT OF FATHER FERDINAND MUHIGIRWA, DIRECTOR, CENTRE 
 D'ETUDES POUR I'ACTION SOCIALE, KINSHASA, DEMOCRATIC REPUBLIC 
                            OF CONGO

    Father Muhigirwa. Thank you, Chairman. Chairman Coons, 
Ranking Member Flake, members of the Subcommittee on African 
Affairs, thank you for the invitation and honor to testify 
before your committee. I come before you as a Congolese Jesuit 
priest, and the views expressed in this statement are mine 
alone.
    This present hearing is in a particular way timely and 
critical for the DRC due to three very recent events: the 
adoption of the Peace, Security and Cooperation Framework; the 
appointment of a U.N. special envoy for the Great Lakes; and 
the passage of a U.N. Security Council Resolution 2098.
    Noting that after two decades the eastern Congo is 
continuing to suffer from a recurring cycle of violence and 
conflict by armed groups, both Congolese and foreign, what 
should be done to put an end to these recurring cycles of 
violence? My statement is a contribution to this question and 
sharing briefly my insights on the three key issues of 
electoral reform, peace and security, regional cooperation for 
economic development.
    First, electoral reform. Given the lack of a credible 
electoral process in November 2011, the Government in Congo 
does not have the full legitimacy to resolve this crisis. Thus, 
what is urgently needed in 2013 is a reform of the national 
electoral commission called the CENI, the training in civic and 
voter education of the CENI members and those of the civil 
society leaders through the electoral training school in 
central Africa to ensure a real independence, fairness, and 
transparency of the provincial and local elections are 
hopefully held in November 2013. In November 2016, only 
Presidential and legislative elections will take place. The 
United States and other international partners should ensure 
that the electoral process is financed, logistically assisted, 
monitored, and evaluated closely with clear benchmarks and 
appropriate followup measures and results.
    Second, peace and security. In DRC, there are two 
priorities in the area of peace and security: ending impunity 
for sexual violence and neutralizing the M23 rebels. Without 
equitable and restorative justice, there is no genuine and 
lasting peace. Rapes and sexual-based violence continues to 
occur because there is a widespread culture of impunity. So 
this reform is needed to respect the rule of law, to end 
impunity, and to get the rebels cumulative force and of sexual 
violence. In this context, the role of the Congolese Government 
and army is clear.
    The United States Congress can help by calling on the 
Congolese Government to undertake the following specific and 
concrete reforms: to organize the army and the police and 
improve the living conditions of the soldiers and police; to 
establish a viable and professional army and police force that 
respects human rights and the rule of law; to create a rapid 
reaction force according to Resolution 2098; to pave the way 
for an efficient military administration; to allow the police 
to play its role in the establishment of public order.
    Third, regional cooperation for economic development. 
Regional cooperation should be grounded in regional economic 
projects for sustainable development with special 
considerations to the management of natural resources because 
this has historically been one of the key drivers of conflict. 
In the Great Lake region, regional cooperation for economic 
development has failed. Why? Because there is lack of political 
will, lack of strategic vision for development of the region, 
and no sufficient financial support from the U.S. Government 
and from the financial institutions and bilateral partners. The 
U.S. Government can promote and support financing from the 
World Bank of regional economic projects in the area of roads, 
rail, electricity, oil, and gas. These projects will become 
also a factor of political stability and social reconciliation 
among the people in the Great Lakes region.
    Mr. Chairman, my hope, my prayer is that the full 
implementation of the United Nations framework and Resolution 
2098 by all the stakeholders will put an end to recurring 
cycles of violence in eastern Congo, promote peace and security 
for provincial and local elections, strengthen the cooperation 
for sustainable economic development for DRC and the entire 
region.
    Thank you for the opportunity to present my insights on 
this important issue. I welcome the engagement of the 
subcommittee and the U.S. Congress and I look forward to your 
questions. Thank you.
    [The prepared statement of Father Muhigirwa follows:]

   Prepared Statement of Rev. Prof. Muhigirwa Rusembuka Ferdinand SJ

    Chairman Coons, Ranking Member Flake, members of the Subcommittee 
on African Affairs, thank you for the invitation and honor to testify 
before your committee. I come before you as a Congolese Jesuit priest. 
The views expressed in this statement are mine. This present hearing is 
particularly timely and critical for the Democratic Republic of Congo 
(DRC) due to three very recent events: the adoption of the Peace, 
Security and Cooperation Framework; the appointment of a U.N. Special 
Envoy to the Great Lakes; and the passage of U.N. Security Council 
Resolution 2098.
    From 1996 to 2013, the suffering in Congo has included 5.4 million 
people dead, 2 million refugees and IDPs, and an untold number of 
rapes, killings, and other human rights violations. Congo is thus the 
``home of the deadliest conflict since World War II.'' The conflict is 
complex but the fundamental problems remain the same: poor governance, 
unresolved grievances, competition for natural resources, and outside 
interference. There is a new window of opportunity due to recent events 
that offers the United States, the United Nations, and the rest of the 
international community the chance to help end this terrible conflict 
for good.
    The important and positive recent events started on February 24, 
2013, in Addis Ababa, when a Peace, Security, and Cooperation (PSC) 
Framework for the DRC and the region was signed by 11 Heads of States 
or their Representatives, together with the Secretary General of the 
United Nations, the Chairperson of the African Union, the Chairperson 
of the Southern African Development Community and the Chairperson of 
the International Conference on the Great Lakes Region. To fulfill one 
of the recommendations of the PSC Framework, former Irish President 
Mary Robinson was appointed as a high-level U.N. Special Envoy in the 
Great Lakes Region. On March 28, 2013, the Security Council voted for 
U.N. Resolution 2098, which demonstrates the Council's solidarity and 
wish to work for peace and security in the Great Lake Regions.
    The United Nations has taken the lead on a new approach to the 
ongoing conflict in Congo by proposing a framework agreement among 11 
countries in the region (known as the ``11+4 mechanism framework'') to 
promote peace, security, and cooperation for DRC and the region, to put 
an end to recurring cycles of violence, and to promote cooperation and 
economic integration in the Great Lakes Region.
    While this evolving framework is a positive step, it is crucial 
that it does not fall back on the half-measures of past initiatives. A 
comprehensive, holistic, and synchronized approach is needed for the 
implementation of this framework.
    From 1997 to December 2012, 15 UNSC resolutions have been made, and 
7 peace agreements have been signed. All of these resolutions and peace 
agreements have failed to bring lasting peace for many reasons: 
lackluster implementation, lack of political will, lack of strategic 
vision for the development of the region, and no sufficient financial 
support from the multilateral financial institutions or bilateral 
partners. This is why peace, security, and cooperation for the DRC and 
the region are more remote today than 15 years ago.
    In this statement, I will share my insights on the three key 
issues: peace and security; democracy, provincial and local elections; 
and regional cooperation for sustainable development. And lastly, and 
perhaps most relevant to this committee, I will offer specific 
recommendations to the DRC and U.S. Governments.
                         1. peace and security
    There are two key priorities in the area of peace and security--
ending impunity for sexual violence and demobilizing M23.
    In the context of Congo, the first priority for the restoration of 
the State is the establishment of the rule of law through justice. Why? 
Because without equitable and restorative justice, there can be no 
genuine and lasting peace and no economic development. Sexually based 
violence continues to occur because there is a widespread culture of 
impunity. Perpetrators of sexual violence are not held accountable, 
thus they do not fear repercussions and the victims of sexual violence 
continue to suffer.
    Obviously, one of the most pressing challenges is the 
demobilization of the M23 and other armed groups, in the context of a 
renewed stabilization strategy which should also include armed groups 
active in the provinces North Kivu, South Kivu, Katanga, and Orientale.
    In this context, the role of the Congolese Government and Army is 
clear. The government must undertake specific and concrete reforms to 
organize the army and improve the living conditions of the military. 
The government in Kinshasa must also pave the way for an efficient 
military administration to allow the police to play its role in the 
establishment of public order. They must also strengthen local 
governance and resolve customary conflicts and land issues. Again, it 
is also important that the DRC Government proactively begins to fight 
impunity and arbitrariness in all its forms.
    It is imperative that no deal includes amnesty for war crimes or 
crimes against humanity. Another aspect of regional engagement should 
be a ramped-up effort for dealing with the FDLR based on elements of 
the 2007 Nairobi Communique.
              2. democracy, provincial and local elections
    Given the lack a credible electoral process in November 2011, what 
is urgently needed is the restoration of the confidence of the 
Congolese people in the electoral process through the restructuring of 
the electoral commission to ensure real independence, fairness, and 
transparency of the provincial and local elections.
    The delay in holding local elections hinders the emergence of 
grassroots democracy. Without local governance, there is a significant 
negative impact on peoples' perceptions of the authority of the State, 
leading to an identity crisis, hindering the social reintegration of 
demobilized combatants and the fight against the proliferation of armed 
groups.
    The U.S. Government has an important role to play in ensuring that 
the DRC Government reestablishes its legitimacy. First, we must work 
with them to establish in an inclusive manner a realistic and credible 
timeline for the elections and to ensure that the electoral process is 
monitored and evaluated closely. One particular thing to flag is that 
we must be sure the political space is open and that the political 
opposition is allowed to operate and air their views freely.
    DR Congo is engaged in a process of restructuring the Independent 
National Electoral Commission (CENI). We must learn from the faulty 
2011 elections and build the capacity of the new CENI in order to 
establish a credible and realistic timetable for local and provincial 
elections, taking into account the financial and logistical constraints 
and the stipulations of the electoral cycle. We also must promote the 
participation of all stakeholders and develop a rigorous scheme for 
electoral integrity.
    The U.S. message should be clear: the Government of DRC must use 
2013 to prepare and organize to hold both provincial and local 
elections in 2014--ideally at the same time. In November 2016, only the 
Presidential and legislative elections will take place.
    The major financing of the elections will be provided by the DRC 
Government, but the support of the international community should be 
complementary and should specifically include the following: support 
for training through the electoral training school in Central Africa 
(EFEAC); civic and voter education; supporting election monitoring by 
civil society and political parties; strengthening the capacity of 
those mechanisms charged with electoral dispute resolution and media 
regulation; and lastly, logistical support to CENI.
          3. regional cooperation for sustainable development
    Regional cooperation should be based on regional economic projects 
for sustainable development. The U.S. can promote and support financing 
(through international financial institutions) for those economic 
regional projects that incorporate the regional interests of all 
parties. If well-conceived and well-managed, Economic Community of 
Great Lakes Countries (CEPGL) projects in the area of roads, rail, 
energy, gas, oil, mining, and fisheries could reduce tensions, 
competition, and become an important factor in stabilization and 
economic development. This process should also seek input from the AU, 
the ICGLR, SADC, and Congolese civil society.
                      4. specific recommendations
1. To the U.S. and the broader international community
    In 2006, the U.S. Senate passed the ``Democratic Republic of the 
Congo Relief, Security and Democracy Promotion Act.'' (Public Law 109-
456, SEC 101 and 102) When considering recommendations for the United 
States Government, many of the priorities outlined in this legislation 
still resonate today. That law specifically mentioned the need for 
rehabilitation of the national judiciary to enhance the rule of law, 
the importance of combating corruption and the need to institute 
economic reforms to promote development. The legislation also mentioned 
the need for the U.S. to support security sector reform, including the 
army, military, justice system, and police force. These are still the 
key necessary preconditions for peace and stability in the region.
    Taking that into consideration, the U.S. and broader international 
community should:

--Support the Peace, Security and Cooperation framework by financing 
    integrating projects between the DRC and neighboring countries;
--Organize a donors' conference on the DRC and the Great Lakes Region 
    where the international community would demonstrate its financial 
    commitment to support institutional reforms and cross-border 
    economic initiatives;
--Sustain a renewed commitment by bilateral partners to remain engaged 
    in supporting the Democratic Republic of the Congo and the region, 
    including with appropriate means to ensure long-term 
    sustainability; and
--Assist the DRC Government in developing a robust monitoring and 
    evaluation mechanism for assessing progress.
2. To the Government of the Democratic Republic of Congo
    The Government of the Democratic Republic of Congo should:

--Create a robust monitoring and evaluation mechanism to assess 
    progress in a transparent manner by a multistakeholder group, 
    including the international partners of the DRC and DRC civil 
    society;
--Promote a concerted effort by governments and companies to 
    demilitarize mining areas in the Kivus to promote clean trade, 
    which should comply with the ICGRL measures, OECD and U.N. 
    standards, governments, and companies to deny funding to 
    belligerents, create better working conditions for artisanal miners 
    and build investor confidence;
--Expand use of the credible mechanism for certification and 
    traceability to monitor conflict-free minerals to export to 
    downstream and end-users. This mechanism for certification and 
    traceability to monitor conflict-free minerals is financed by USAID 
    and BGR and coordinated by the ministry of mines and PROMINES. Work 
    has shown that 55 artisanal mine sites out of 82 assessed have been 
    validated as free from child labor and illegal taxation.

    Thank you for the opportunity to present my perspective on this 
important issue. I welcome the engagement of this subcommittee and the 
U.S. Congress and I look forward to your questions.

    Senator Coons. Thank you, Father, for your testimony today.
    Mr. Borello.

STATEMENT OF FEDERICO BORELLO, DIRECTOR, INVESTMENTS, HUMANITY 
                     UNITED, WASHINGTON, DC

    Mr. Borello. Chairman Coons, Ranking Member Flake, Senator 
Durbin, on behalf of Humanity United, a private philanthropic 
institution that tries to build peace and advance human 
freedom, I thank you very much for inviting me to testify on 
the critical situation in eastern Congo.
    After years of international apathy toward the region, a 
new crisis, provoked by the M23 and supported by Rwanda, seems 
to have shaken concerned international policymakers into 
action. Like my colleague and like you, Chairman, I welcome the 
Peace and Security Framework, the appointment of Ms. Mary 
Robinson, and the renewed mandate and enhanced mandate from 
MONUSCO. However, very little has changed on the ground yet.
    In the past, the United States and the international 
community have prioritized reactive and short-term initiatives 
and refrained from confronting the deep and uncomfortable 
political issues that are at the root of the region's ongoing 
conflict. We must not let that happen again. We cannot choose 
among the full range of recommendations that are contained in 
my written statement, many of which have been already mentioned 
by my colleagues, although in each of these areas, there are 
concrete and realistic first steps that could be taken to make 
progress. Only by addressing all these issues simultaneously 
and comprehensively can we support the Congolese people to 
break this 20-year-old cycle of violence.
    Let me outline a few key areas including reforms needed at 
the regional, national, and local level.
    First, regional issues must be addressed. The 
noninterference pledge formalizing the framework must be fully 
implemented and Rwanda's determination to create and support 
abusive rebel groups in the Congo must be broken at all costs. 
In parallel, significant efforts are needed to promote greater 
regional economic progress along the line of what my colleague, 
John Prendergast, has suggested and to address Rwanda's 
concerns with the FDLR rebel group based in eastern DRC 
according to a DDR plan that I outlined in my written 
testimony.
    Second, national issues must be addressed. The increasing 
focus on Rwanda's role does not excuse the Congolese 
Government's near total failure in fostering good governance 
and the rule of law. The following reform needs to be urgently 
launched: security sector reform, accountability for war crimes 
and crimes against humanity, comprehensive land reform, and a 
democratization process as described in a recent paper by 
Gambino and Weissman that I respectfully request be added to 
the records of this hearing.
    Senator Coons. Without objection.
    Mr. Borello. Thank you.
    Third, local issues must be taken head on. Offensive 
military operations by the new MONUSCO Intervention Brigade 
must be accompanied by a revamped disarmament, demobilization, 
and reintegration program, and most importantly, by a state-
sponsored intercommunity dialogue process in the Kivus. 
Ultimately, it is up to the Congolese Government, civil 
society, and people to identify the solution to the violence 
that continues to plague their country once external 
interference ceases. However, the international community and 
the United States in particular can play an important role in 
facilitating this process. My testimony outlines 10 
recommendations for the United States which I hope we can 
discuss during the hearing. But let me highlight five in 
particular.
    First, as already mentioned first by you, Chairman, and by 
my colleagues, a high-level envoy is urgent and the No. 1 
priority, someone with the political stature, experience, and 
skills necessary to engage at the highest level with regional 
Presidents and the U.N. envoy.
    Second, the United States must fully support Ms. Mary 
Robinson as she tries to hold governments accountable to their 
pledges and closely coordinate in the development of benchmarks 
for both regional and national commitments as outlined in the 
Peace and Security Framework.
    Third, the United States, under the leadership of its own 
envoy, should redefine its political and aid strategy toward 
the region and hold the DRC and Rwanda accountable to agreed-
upon benchmarks.
    Four, the United States, in close coordination with the 
United Nations and other donors, must commit to technical and 
financial support for long-term and sustainable security sector 
reform in the DRC.
    Five, the United States should continue to provide strong 
support to the creation of an internationalized judicial 
mechanism to prosecute serious human rights abuses, including 
sexual- and gender-based violence, in the DRC.
    In conclusion, in diplomatic circles, one often hears that 
we have tried everything in the Congo and nothing works. I 
strongly reject this defeatist attitude. We have not tried 
everything.
    Since 2006, after a relatively successful electoral 
process, the international community has drifted toward purely 
military and technocratic solutions to deep-seated political 
problems. We have prioritized an increasing militarization of 
MONUC and MONUSCO and its checkered relationship with the 
Congolese military and powerlessly witnessed the creation of 
new armed groups and the continuing abuses of the Congolese 
Army. We have built buildings to house institutions, but forgot 
to build the institutions themselves. We have rightfully 
applauded Rwanda's spectacular recovery from the ashes of 
genocide, but we have stayed silent for too many years about 
its abuses in the Congo. We have provided technical and 
financial support to the 2011 DRC elections but silently 
witnessed as massive fraud voided them of any significance. For 
these reasons, we failed the Congolese people.
    We now need a comprehensive process that creates incentives 
for Rwanda to stop supporting armed proxies, for the Congolese 
Government to start the overdue process of reforming its ailing 
national institutions, and for local communities in eastern DRC 
to stop supporting armed groups to further their grievances. 
For this, a sustained, robust political process led by the U.N. 
envoy and supported by the U.S. Government and this committee 
is the best hope we have had in a decade to help move this 
region and its people toward peace and prosperity.
    Thank you very much.
    [The prepared statement of Mr. Borello follows:]

                 Prepared Statement of Federico Borello

    Chairman Coons, Ranking Member Flake, and other members of the 
subcommittee, I would like to thank you very much for inviting me to 
testify on the critical situation in eastern Congo and for your 
continuing attention to the plight of ordinary men, women, and children 
in this troubled part of the world.
    My name is Federico Borello, and I am Director of Investments at 
Humanity United, a private philanthropic institution that strives to 
build peace and advance human freedom. I have been working on and in 
the Great Lakes Region of Africa since 2002, in the fields of human 
rights promotion, transitional justice, and conflict prevention.
    After years of international apathy toward the region, a new 
crisis, this time provoked by a rebel movement known as M23, seems to 
have shaken concerned international policymakers into action. Now is 
the time to turn promising but vague commitments and principles into 
action. Though this crisis manifests itself acutely in eastern Congo, 
where civilians have lived in an almost perpetual state of violence 
since 1993, the solution to the problem lies in a sustained and 
comprehensive approach that looks at the regional, national, and local 
dimensions of this conflict.
    Three recent developments have helped to shape the current 
opportunity for progress. First, the recent Peace, Security and 
Cooperation Framework (hereby ``the framework'' or ``11+4 framework'') 
signed in Addis Ababa on February 24, 2013, though it has its 
weaknesses, correctly identifies the need for such a comprehensive 
approach. Second, the appointment as U.N. Special Envoy to the region 
of former Irish President Mary Robinson, a proven leader with the 
appropriate political stature, experience, integrity and commitment to 
human rights and accountability, could prove a vital contribution to 
the cause of bringing peace to the region. Finally, the redefinition of 
the mandate of the U.N. peacekeeping mission (MONUSCO) and its newly 
enhanced strength can help the battered peacekeeping mission to become 
more effective in protecting civilians and bringing stability to the 
region. Combined, these measures offer an unprecedented opportunity to 
comprehensively tackle the root causes of conflict and violence.
    However, very little has changed on the ground yet, and there is a 
serious possibility that the United States and the international 
community will repeat past mistakes. There is a real risk that the 
international community will not fully attend to all critical aspects 
of the crisis, squandering this opportunity by continuing to engage in 
a superficial and reactive way, taking cosmetic, short-term, and half-
hearted initiatives but refraining from focusing on the deep and 
uncomfortable political issues that have defeated all efforts to bring 
peace to the region until now. This has been the modus operandi of the 
international community over the last two decades in the Democratic 
Republic of Congo (DRC), one of reacting to the symptoms, rather than 
the causes, of the problem, and always focusing on short-term measures 
in reaction to successive crises, rather than seeking to implement 
durable solutions.
    This scenario would be a new variant of past attempts and would 
result in the resumption of aid to Rwanda, the restoration of 
legitimacy to a much-weakened President Kabila, and the rehabilitation 
of the public image of MONUSCO. The Congolese people, however, would 
see no end to their misery. Further, the U.S. taxpayer would have to 
shoulder the burden of paying for MONUSCO for years to come, given that 
the perpetuation of conflict in this context is almost inevitable. 
Today, we are not one day closer to MONUSCO's safe withdrawal than we 
were in 2006 when Congo held relatively successful national elections.
    The U.S. Government and others in the international community must 
not allow this unfortunate scenario to happen. The administration and 
Congress must reevaluate the current approach by the United States and 
move away from ineffective and short-term policies toward a long-term 
strategy. Deep and sustained political and economic engagement is 
sorely needed by the U.S. Government, the U.N., the African Union (AU) 
and the donor community, to gradually but radically change regional, 
national, and local dynamics and incentives for governments and 
communities in the region.
    In my testimony, I will lay out the steps that must be taken at the 
regional, national, and local level to create a sustainable resolution 
to the challenges in the DRC, and I will conclude with a series of 
recommendations for the U.S. Government.
    Unfortunately, we do not have the choice to prioritize among these 
recommendations, or the other elements I will address in my testimony. 
Only by addressing them simultaneously and comprehensively can we 
support the Congolese people to break the 20-year-old cycle of 
violence.
              i. actions to be taken at the regional level
A. Implementation of noninterference pledge
    The 11+4 framework is very clear: all countries in the region have 
committed ``not to interfere in the internal affairs of neighboring 
countries'' and to ``neither tolerate nor provide assistance or support 
of any kind to armed groups.''
    Rwanda is the unnamed main target of this provision, having been 
the primary supporter of some of the largest insurrections in eastern 
Congo over the past two decades. After 15 years of regrettable 
tolerance, reports documenting the extent of the Rwandan Government's 
support to the M23, including in its creation and the occupation of 
Goma, coupled with reports documenting the extent of M23's atrocities 
against civilians, led to an unprecedented wave of international 
condemnation, and the suspension of aid by several donors. These 
decisions by members of the international community were initially met 
with defiance by the government in Kigali. In recent months, however, 
we have seen signs that international pressure in general--and these 
sanctions in particular--are starting to produce the intended effect, 
and may eventually produce lasting change in the Rwandan Government's 
attitudes and actions in the region, provided that pressure and intense 
scrutiny are maintained over the next few months and years by the 
international community. On the one hand, there has been no major 
Rwanda-supported military offensive by the M23 since the occupation of 
Goma, but on the other hand there have been credible reports over the 
past 2 weeks about the movement of armed troops and supplies from 
Rwanda to Congo in support of the M23. In this context, the surrender 
of Bosco Ntaganda to the International Criminal Court through the good 
offices of the United States was a notable success of this pressure, 
but it would be premature to declare victory and assume that Rwanda's 
determination to support abusive armed groups in Congo has been broken.
    Donors, including the U.S. Government, are mulling over the 
appropriate benchmarks that need to be agreed upon to resume aid to 
Rwanda. Some donors have prematurely already partly restored aid. I 
would strongly urge that the United States and the members of this 
committee make the dissolution of the M23 the main precondition for 
restarting aid. As has been documented by the U.N. Group of Experts and 
various nongovernmental organizations, the M23 has been created, 
trained, supplied, and directed by Rwandan officials, and its leaders 
regularly travel to Kigali when summoned. It is now the Rwandan 
Government's responsibility, and fully within its power, to push their 
proxy group to depose of their arms. This is not in any way a call for 
the Rwandan Army to go back into Congo, as it did in 2009, and arrest 
M23 leaders, but rather a call for Kigali to use its considerable 
political leverage to convince the M23 to lay down their arms. The M23 
should go through a rigorous Disarmament, Demobilization and 
Reintegration (DDR) program, just like any other armed group, in 
accordance with the principles outlined in section III below.
    Several times in the past, Rwanda formally committed to not create 
or support armed groups in eastern DRC, but it has repeatedly broken 
these promises. Using this diplomatic window of opportunity, we must 
now ensure that this is the last time. The U.N. Group of Experts will 
continue to be a vital source of information on documenting outside 
support to armed groups, and its mandate will need to be renewed for at 
least another few years.
    In order to address Rwanda's legitimate security concerns, a 
renewed effort for dealing with the Armed Forces for the Liberation of 
Rwanda (FDLR, from its French acronym) rebellion, which continues to be 
based in the eastern Congo and terrorizes civilians, should be 
launched. The new MONUSCO Intervention Brigade (IB) could be tasked 
with conducting targeted operations against the FDLR leadership, in 
strict compliance with international humanitarian law and with 
MONUSCO's protection of civilians mandate. However, a purely military 
solution would be insufficient, and the governments of the DRC and 
Rwanda should launch a new, comprehensive process to address this 
challenge. This should include:

  <bullet> The publication of the list of suspected genocidaires by the 
        Rwandan Government (as agreed in a 2007 agreement between the 
        Governments of Rwanda and DRC);
  <bullet> The possibility of third-country resettlement for leaders 
        not charged with genocide, war crimes, or crimes against 
        humanity;
  <bullet> Supporting the return, demobilization, and safe 
        reintegration of the FDLR to Rwanda if they have not committed 
        crimes;
  <bullet> Better information-sharing between the United Nations, the 
        Congolese Government, and Rwanda regarding the remaining FDLR 
        troops;
  <bullet> Public denunciation and, if appropriate, prosecution of 
        FARDC officers collaborating with the FDLR; and
  <bullet> Ramping up U.N. sensitization efforts of FDLR combatants to 
        induce them to demobilize and reintegrate civilian life.

    Finally, the international community needs to be mindful of other 
regional players, such as Uganda. Uganda's historical involvement in 
the eastern Congo is well-known. Though Rwandan influence has been the 
largest factor in the development of the M23, we need to ensure that 
other countries do not fill what they may perceive to be a vacuum and 
benefit from a decreased footprint by Rwandan actors.
B. Regional economic progress
    In parallel, significant efforts are needed to promote greater 
regional economic progress. The international community should back 
projects that demonstrate the benefits of regional peace and stability 
and help create mutually beneficial economic interdependence, possibly 
through the creation of a World Bank Fund. Such a Fund could help 
countries in the region adopt a common legal framework to facilitate 
cross-border trade and provide funding for projects that would benefit 
the entire region, such as in the electricity and mining sectors.
    Developing new approaches to further economic progress in DRC and 
Rwanda needs to be done in consultation with local communities along 
the two sides of the border and not imposed through a top-down approach 
by regional governments and foreign donors. The 11+4 process needs to 
develop new solutions to the needs of these communities and generate a 
win-win mentality over the riches that should bring prosperity in both 
countries. As Ms. Robinson carries out her work, she needs to be 
particularly cognizant of the concerns of local communities in Congo in 
this regard. Given that the conflict has led to individuals outside 
these communities benefiting from the wealth of eastern Congo, 
proposals to foster improved economic cooperation will be greeted with 
concerns that they are, in fact, an effort to normalize an unfair 
status quo. Communities in eastern Congo need to be convinced that any 
economic arrangement is in their long-term economic interest and will 
help both their own peace and prosperity.
             ii. actions to be taken at the national level
    The increasing focus on Rwanda's role in destabilizing its neighbor 
should not lead us to be oblivious to the Congolese Government's near 
total failure in creating functioning institutions and establishing at 
least the foundations of the rule of law. Eliminating Rwanda's 
destabilizing influence in the east is merely a necessary precondition 
to resolving the internal root causes of the conflict, which lie in 
longstanding governance failures.
    The November 2012 rape of at least 126 women in Minova, South Kivu 
province by retreating Congolese army units, and the most recent 
involvement of other units in ethnic clashes in Kitchanga, North Kivu, 
which left at least 55 civilians dead, prove once again that the 
Congolese Army (know by their French acronym, FARDC) are as abusive as 
any armed group roaming eastern DRC and terrorizing the civilian 
population.
    The following reforms need to be urgently launched:
    Security sector reform: The reform of the security sector, starting 
with the army and the police, is the most urgent priority. Bilateral 
train-and-equip approaches, including the U.S. Government's, should be 
reevaluated and where appropriate suspended, in order to forge a 
multilateral, comprehensive reform strategy. The Congolese Government, 
supported by the U.N. Envoy, MONUSCO, and its main donors, should 
develop a comprehensive proposal to create an effective and accountable 
security sector, in consultation with wide sectors of civil society. 
Any effort must include, and possibly start with, a vetting process to 
exclude alleged human rights abusers from all security services. The 
development of a concrete, realistic, and participatory army and police 
reform plan should be the first benchmark against which Kinshasa's 
commitment to the 11+4 framework should be evaluated.
    Judicial reform and accountability: Bosco Ntaganda's recent 
surrender to the International Criminal Court was an important 
development for justice and accountability for the DRC. However, it is 
just the tip of the iceberg. The creation of an internationalized 
judicial mechanism to end impunity for serious human rights violations 
should also be a top priority for Kinshasa. It is clear that, despite 
the competence and the valiant efforts of some of its members, the 
Congolese judiciary still does not have sufficient capabilities, 
resources, and independence to resolutely break the cycle of impunity, 
which is closely correlated to the cycle of violence. National 
legislation on mixed Congolese-international chambers within the DRC's 
judicial system should be supported and funded so such a mechanism can 
be established at the earliest possible time. This should be a second 
benchmark.
    Democratization, decentralization, and local elections: The 
complete stalemate in the democratization agenda, and the failure to 
hold local elections are also a cause of serious concern. I would like 
to refer to an excellent paper recently published by Anthony Gambino 
and Stephen Weissman, which includes concrete and practical 
recommendations, and respectfully ask that this paper be included in 
the record of this hearing.
    Land reform and natural resource management: Some of the other 
urgent priorities are comprehensive land reform and the creation of a 
more accountable and transparent natural resource management system. 
Donors should support the nascent land reform process led by the 
Congolese Ministry of Land Affairs, which was launched in July 2012 
with USAID support. In the context of this process, the government has 
developed a roadmap and is setting up a Steering Committee that would 
oversee the reform process, whose ultimate goal is to give land tenure 
security to individuals and businesses. It is also imperative that 
donors coordinate their efforts among themselves, and ensure that this 
process is ultimately structured to deliver security of tenure over 
land to the largely agrarian poor communities in eastern DRC, thus 
eliminating a major grievance of many such communities, which often 
leads them to lend support abusive armed groups.
    President Kabila, by signing the framework agreement, has formally 
committed to undertake most of these reforms. However, there are few 
reasons to assume that the Congolese Government, after stalling on 
these reforms for a decade, will suddenly take a keen interest in their 
implementation. Its main diplomatic offensive during the negotiations 
of the framework agreement has been aimed at excluding donors and civil 
society from the proposed ``national oversight mechanism,'' set up 
under the framework to monitor the Congolese Government's compliance 
with its obligations to conduct a set of crucial institutional reforms. 
The revised mechanism includes only the Congolese Government, which is 
now solely responsible for overseeing itself. In my view, this weakened 
method to monitor the Congolese Government's performance of the 
benchmarks in the framework agreement is a notable flaw in an otherwise 
important step toward regional peace. It is imperative, regardless of 
the terms of the agreement, that donors and civil society be brought 
back into this mechanism, or that an alternative and truly independent 
and effective monitoring mechanism is set up to review the DRC 
Government's compliance with its obligations under the framework and 
agree on consequences to be imposed for failure to meet those 
obligations.
    The role of Ms. Robinson in overseeing the implementation of the 
entire framework, and not only of the commitments of regional 
governments, is therefore crucial to ensure the success of the 11+4 
framework. With no progress at the national level, any progress made on 
other levels will be undermined, if not lost altogether.
              iii. actions to be taken at the local level
    Cutting Rwanda's support for illegal armed groups and launching 
crucial reforms at the national level are necessary but insufficient 
measures to bring peace to eastern Congo. The lawlessness and 
proliferation of armed groups require energetic measures to restore 
security to Congo's eastern provinces.
    Three simultaneous local-level processes are needed to bring some 
stability to eastern DRC: (1) military operations by the MONUSCO 
Intervention Brigade; (2) a revamped Disarmament, Demobilization and 
Reintegration (DDR) process; and (3) a serious intercommunity dialogue 
process.
    The creation of the new MONUSCO Intervention Brigade, authorized in 
the recent U.N. Security Council Resolution 2098 on MONUSCO, can prove 
to be a positive development, and there are already signs that armed 
groups are concerned about its imminent deployment. The Brigade's 
military operations, to be conducted in strict compliance with 
international humanitarian law and with MONUSCO's protection of 
civilians mandate, should target the leadership of all armed groups 
(M23, FDLR, Congolese Mai-Mai groups, other foreign groups). In 
execution of the new MONUSCO mandate, the IB should also conduct 
targeted operations to arrest those against whom authorities in Congo 
or elsewhere have issued arrest warrants.
    However, it is necessary to learn lessons from past failed attempts 
to use foreign forces to bring peace and stability to this troubled 
region.
    First, absent any serious reform and sufficient accountability for 
past human rights violations, MONUSCO should carefully reevaluate its 
support to the FARDC and joint operations with them, particularly 
because this army continue to behave just like many other armed groups 
in the region. The Brigade may want to consider conducting operations 
on its own, at least until concrete safeguards are created 
to prevent the FARDC from perpetrating abuses during or after joint 
military operations.
    Second, any purely military approach is destined to fail. Such 
targeted military operations would weaken and demoralize armed groups 
members, and encourage them to lay down their weapons. However, it is 
imperative that a new DDR program is conceived and implemented, ideally 
prior to the beginning of the IB's military operations. Such a program 
would organize the combatants' vetting, training, integration, and 
deployment, and offer alternative opportunities to rejoin civilian 
life, such as road construction projects or other work opportunities. 
These projects should be funded by the international community in part 
for several years, and include a mix of former combatants and 
civilians, so that the perception is not created that economic 
opportunities are reserved for former combatants, but are rather 
available to communities as a whole.
    A new DDR program and strategy should also ensure that those 
responsible for serious abuses are not integrated into the army but 
instead arrested and brought to justice. Finally, those who do wish to 
join the army and fit the criteria should be trained and then deployed 
into army units throughout the country; they should not remain in units 
operating in their former area of operation as an armed group.
    Finally, a serious process of intercommunity dialogue is necessary 
to address the legitimate community grievances that have previously 
moved many communities to lend support to abusive armed groups. Such a 
process, if accompanied by the crucial reforms mentioned in section II 
above (particularly land reform and decentralization) would focus on 
cutting the links between communities and armed groups and work to 
prevent future instances in which communities resort to violence to 
accomplish their interests. Local, mostly NGO-led initiatives have 
tried to stimulate intercommunity dialogue. The government, with the 
support of the international community and MONUSCO in particular, 
should institutionalize and expand such dialogue initiatives, within 
the framework of the revised International Security and Stabilization 
Support Strategy (ISSSS), a joint U.N./donors effort that serves as the 
main vehicle for international support to the DRC's own Stabilization 
and Reconstruction Plan for War-Affected Areas (STAREC), launched in 
June 2009. The ISSSS, revised in 2012, is a program aimed at supporting 
the establishment of sustainable security forces and the consolidation 
of state authority in eastern Congo. All donors wanting to contribute 
to the stabilization effort in eastern DRC are expected to do it within 
the ISSSS framework.
    iv. recommendations for the united states and the international 
                               community
    Ultimately, it is up to the Congolese Government, civil society and 
people to find a solution to the lack of governance and violence that 
continues to plague their country, once external interference ceases. 
Only a national process of dialogue over reform and reconciliation, in 
which all actors assume their responsibilities and decide to work 
toward peace, can change the current dynamics and move the country 
closer toward peace.
    Nonetheless, the international community and the United States in 
particular can play an important role in facilitating this process.
    1. The U.S. should appoint a high-level Presidential Special Envoy 
to the Great Lakes Region, with the political stature, experience, and 
skills necessary to engage at the highest levels with regional 
Presidents and the U.N. Envoy. Given the relatively neutral profile of 
the United States in the region's history and strong relations with the 
key parties, the appointment of a high-level U.S. Envoy would signal a 
renewed and stronger political engagement with the crisis to regional 
governments. Such a position would enable the United States to develop 
a long-term strategy and policies tailored to the regional dynamics 
that require complex solutions. The Special Envoy must closely 
coordinate with U.S. embassies in the region to ensure that the 
position would enhance, rather than hinder, coordination across the 
U.S. Government. This position must have broad authorities, sufficient 
staff in Washington as well as in the region, and resources to execute 
their duties both bilaterally and multilaterally. Ultimately, the right 
U.S. Special Envoy can be a force multiplier, tipping the scales where 
Ms. Robinson needs support and helping to coordinate donors who need to 
be brought along to influence the DRC and Rwandan Governments. It 
should be noted that there is strong bipartisan support in both the 
Senate and the House of Representatives for the appointment of a 
Presidential Special Envoy.
    2. The United States and its allies in the international community 
must fully support Ms. Mary Robinson as she tries to hold governments 
accountable to their pledges. Given that the lack of political will in 
both Kigali and Kinshasa is the main obstacle to peace, a political 
process led by an experienced and principled politician is sorely 
needed. The U.S. Government, therefore, should insist that both the 
regional and the national processes fall under Ms. Robinson's watch. 
While it is clear that she will preside over the regional oversight 
mechanism, the language in the framework is more ambiguous when it 
comes to the national reform process, which is probably more important 
and complicated than the regional process.
    3. The U.S. should closely coordinate with Ms. Robinson in the 
development of benchmarks for regional and national commitments. In the 
case of national commitments, Ms. Robinson should develop these 
benchmarks in cooperation with MONUSCO, and in both cases in full 
consultation with governments and civil society in the region as well 
as with key donor governments, including the United States. The 
benchmarks must be public and transparent. A wide variety of 
stakeholders, particularly local civil society groups, should be able 
to submit observations through clear mechanisms on the countries' 
progress in meeting the benchmarks. Donors should also be part of the 
process of developing benchmarks and monitoring progress, possibly 
through the already existing International Contact Group on the DRC.
    4. The United States, under the leadership of its own Special 
Envoy, should redefine its political and aid strategy toward the 
region. In this regard, the U.S. Government and other donors, acting in 
a coordinated way, must be prepared to hold all governments, 
particularly the DRC and Rwanda, accountable to their pledges and the 
agreed-upon benchmarks, if necessary by suspending or modifying aid 
programs. Aid to Rwanda should not resume until the M23 threat has come 
to an end, and all future aid should be tied to Rwanda's commitment not 
to support armed groups in neighboring countries. Evidence of such 
support gathered by the U.N. Group of Experts or other reliable sources 
should then automatically trigger the suspension of U.S. aid again. The 
United States should also be ready to sanction Rwandan officials found 
to be responsible for supporting rebel groups. In the case of Congo, 
aid should be tied to progress in the benchmarks on national reforms 
identified above.
    5. The United States should never again refrain from airing 
publicly its concerns over current and future violations of 
international obligations by all governments in the region. The policy 
of quiet diplomacy initially employed by the United States vis-a-vis 
Rwanda in mid-2012 proved to be ineffective. After months of ignoring 
private threats and warnings by their international partners--and 
indeed even increasing support to the M23--it was only when public 
denonciation was stepped up, including through a publicized phone call 
from President Obama to President Kagame, that Rwanda started to 
respond to international pressure.
    6. The United States should strongly encourage President Kabila to 
include donor governments and civil society in the national oversight 
mechanism envisaged in the framework agreement. This is absolutely 
necessary to lend credibility, competence, and legitimacy to the 
national reform effort.
    7. The United States, in close coordination with the U.N. and other 
international donors, must commit to supporting sustainable security 
sector reform, both technically and financially, over the long-term, as 
described in the section above. The U.S. focus on ``train and equip'' 
programs and policies must be rigorously reassessed and, if necessary, 
halted in order to support a multilateral, comprehensive reform 
strategy. The current limited efforts at retraining some units to be 
deployed in strategic parts of the country, in the absence of a 
coherent vision on the future of the institution as a whole, have not 
produced any lasting improvement, as we have seen once again in recent 
months.
    8. The United States should also provide strong support to the 
creation of mechanisms for accountability in the DRC, such as the 
internationalized mixed chambers described above. The existing 
leadership of Ambassador Rapp in spurring the Congolese Government to 
action on this point is noted and appreciated, and the 11+4 framework 
provides a new opportunity to make further progress on this key issue.
    9. The United States should use its influence at the World Bank to 
ensure that the Bank's decisions and policies are coordinated and 
aligned with the broader international effort. While the Bank is often 
reluctant to engage in political processes, this is a unique and 
concerted multilateral effort to which regional governments agreed, and 
the World Bank is crucial in this regard. Ms. Robinson needs to know 
that every major international player will rally behind her efforts, or 
else the chances for her success will decrease dramatically.
    As part of its work with the World Bank, the United States should 
support the establishment of a fund to assist the development of the 
region, particularly with joint projects that can encourage a ``win-
win'' mentality.
    10. The United States should use its influence to ensure that an 
appropriate new Special Representative of the U.N. Secretary General, 
or SRSG, is chosen by the U.N. to replace the outgoing Roger Meece. In 
such a delicate phase, the mission will need to be led by someone with 
political skills and clout in the region. The context calls for someone 
with the profile of Ambassador William Swing, the former well regarded 
SRSG during the Congolese transition of 2003-2006.
                               conclusion
    In diplomatic circles, one often hears that ``we have tried 
everything in the Congo, and nothing works. The conflict is just too 
complicated.'' I strongly reject this defeatist attitude.
    We have not tried everything. Since 2006, after a relatively 
successful electoral process, we have privileged purely military and 
technocratic solutions to fundamentally political problems. We have 
supported an increasing militarization of MONUC/MONUSCO and its 
checkered relationship with the FARDC, and silently watched the 
creation of new armed groups and the continuing abuses by the Congolese 
Army. We have constructed buildings to house institutions, but forgot 
to build and develop the institutions themselves. We have rightfully 
applauded Rwanda's spectacular recovery from the ashes of genocide, but 
have tragically stayed silent for too many years about its abuses in 
the Congo. We have provided technical and financial support to the 2011 
elections, but witnessed with impotence as massive fraud voided them of 
any significance. For these reasons, and because Congo has a tragic 
history of extremely poor leadership, we have failed the Congolese 
people, but there is nothing inevitable in this.
    We should learn not only from failures, but also from past success 
stories. In 2006, the Congo held relatively successful elections, 
against all odds and predictions. That happened for two reasons: first, 
the determination of the Congolese people to go to the vote despite all 
barriers; and second, the determination of the international community 
to make those elections a success. Donors remained focused and 
politically engaged, MONUC led and coordinated the effort and the 
messaging, and relatively free and fair elections took place.
    We now need a comprehensive process that creates incentives for 
Rwanda to stop supporting armed groups once and for all, for the 
Congolese Government to start the long-overdue process of reforming its 
ailing national institutions, and for local communities in eastern DRC 
to stop supporting armed groups to further their grievances.
    For this, a sustained political process, led by the U.N. Special 
Envoy, and supported by the United States and this committee is the 
best hope we have had in more than a decade to help move this region 
toward the peace and prosperity that its people deserve.

    Senator Coons. Thank you, Mr. Borello, and thank you so 
much to all the four witnesses who have testified today.
    We are now going to begin 7-minute rounds of questions.
    And after all those different recommendations, comments, 
observations, I am encouraged that all four of you have as a 
common theme the idea that this is a moment--a moment when 
peace is possible, when with a disciplined and engaged and 
thorough international support and engagement, we might really 
see the beginning of the end of what has been decades of 
horrible challenge and conflict in the Great Lakes region in 
eastern DRC.
    So I am going to ask just a few focused questions, if I 
could, to make sure I have got your recommendations clearly. If 
I might first to Mr. Prendergast and Mr. Borello. Should the 
United States appoint a special envoy? Would it make a real 
difference? What difference would it make in U.S. policy and 
what would you expect that envoy to do that would change the 
future path of the DRC?
    Mr. Prendergast.
    Mr. Prendergast. Thanks. I think it would make a huge 
difference. My understanding is that the executive branch is 
pretty far along in deciding who they want, and that is great 
news. As everyone has said and would say, if they had the time 
to elaborate, it has to be a very high-level person with 
stature so that it would be taken seriously in the region.
    What to do, though? That is the key question of the four 
you asked. And I feel the United States has leverage that we 
are leaving on the table by not engaging more deeply. And I 
think the leverage comes in the form of positive incentives and 
real costs; positive incentives for peace and real costs for 
those undermining peace.
    In a couple of sentences, the positive incentives can 
include implementation of the legislation that this very 
Congress passed 2 years ago in the Dodd-Frank. By ensuring that 
the regulations that the SEC has put forward are implemented 
creates positive incentives for companies to ensure that on the 
ground, they are not going to buy minerals that are mined 
illegally and violently. It is a very simple concept. It is 
supply and demand. If the demand is there for clean, peacefully 
mined minerals, you are going to get a reaction on the ground, 
and that is already happening. Having traveled there 
extensively in eastern Congo earlier this year and seen the 
effects, already, of how people are trying to reorganize, we 
are going to see that increasingly.
    And if the envoy as well can work to push forward working 
with the companies, I think it is very important that we work 
very closely--government works with the private sector and 
civil society on the ground in eastern Congo--to figure out how 
responsible investment can be organized because we want to see 
the development of the natural resource sector in eastern 
Congo. It is going to be the engine of development, as Ranking 
Member Flake said in his opening statement about the enormous 
potential of this country. It is going to be only unlocked if 
those natural resources are exploited properly. And so having 
some kind of an initiative that focuses on joint efforts to 
define the rules of the game--there are no rules. There have 
not been rules for centuries in Congo. People just take what 
they want and with horrible cost to the Congolese people. That 
is the incentives.
    On the cost side, continuing to stand against cross-border 
support for armed groups. If any government in the region 
provides assistance to any armed group, then there has to be a 
cost in terms of budget support and other assistance. The IMF 
and the World Bank--we need to use our leverage in those 
institutions. And we need to use our leverage to promote 
transparency within Congo so that all of the governance reforms 
that my colleagues talked about internally within Congo have a 
better chance--stand a better chance, and they do not unless 
there is some work done by the external aid agencies, 
particularly the multilateral bodies, in encouraging those 
reforms to occur.
    Senator Coons. Mr. Borello, should we appoint a special 
envoy?
    Mr. Borello. Yes, thank you, Chairman.
    Yes. I think the United States should appoint its own envoy 
provided that that envoy has the necessary political stature to 
engage directly with Presidents and with Ms. Mary Robinson. And 
from what we hear, that is the kind of level that the 
administration is considering.
    First of all, such an envoy, as I said before, should 
redefine a real long-term strategy for the United States. The 
United States, like its international partners, have been 
reactive. Every time there was a crisis, there was intense 
engagement. Then when there seemed to be a truce or not real 
peace, attention went down, and we do not have a coherent 
regional strategy for the region.
    Second, Ms. Mary Robinson brings an enormous political 
experience and integrity and commitment to human rights. But 
there is also suspicion in the region about the United Nations 
and about the role of the United Nations. There needs to be 
some help from the United States to such a process to make sure 
that the process led by Ms. Mary Robinson succeeds.
    Finally, the issue in the region is really political will. 
Both President Kabila and President Kagame have shown in the 
past that President Kabila is not interested in reforms and 
President Kagame or the Rwandan Government is not interested in 
stopping to destabilize the Congo.
    Just to bring you an example, as an observer of the region, 
I also read the Congolese and Rwandan press. When President 
Obama called President Kagame, the change in the actions of the 
Rwandan Government happened overnight. All the articles in the 
Rwandan press, the coordinator of the group of experts--that 
very belligerent and aggressive tone was really measured and 
toned down as a result.
    Senator Coons. In your view, our intervention, in terms of 
accountability for Rwanda's role in this, has made a 
difference.
    Mr. Borello. It has been. It could have been stronger. I 
think the aid suspended was only $200,000, but combined with 
the actions taken by the World Bank, by DFID, the U.K. 
development agency, and others have started to change----
    Senator Coons. And a key role a special envoy could play is 
to insist on accountability for the DRC and for Rwanda and to 
implement this regional peace.
    Mr. Borello. Exactly.
    Senator Coons. If I might, Father Muhigirwa, before I run 
out of time in my first round. A number of witnesses have 
testified about the importance of Dodd-Frank of U.S. action on 
conflict minerals. What role are the NGOs--the nongovernmental 
organizations--on the ground in eastern Congo playing in moving 
away from a conflict-based extractive mineral system that fuels 
and funds rebel groups toward one that is more sustainable, 
more legal, and contributes to the regional economic 
development you spoke of?
    Father Muhigirwa. Thank you for the question.
    The first thing I would say is that when the Dodd-Frank Act 
was published, we had a meeting in Kinshasa with the bishop 
conference and some NGOs, and it was welcomed because in a way, 
in Dodd-Frank you have this provision that is going to bring 
peace by cutting the source of financing the rebel groups.
    But what we have seen is that some mining companies mainly 
from the United States taking into account that they had to 
report to the Security Exchange Commission, according to what 
was in the law. Somehow it happened--a kind of embargo. People 
were afraid that when they will take the minerals from the 
eastern Congo, it was not sure that this mineral will be free 
from conflict. So there had been the discussion from the 
promulgation of the law and the regulations.
    And what we have noticed is that now there is a progress 
from what is going on on the ground. We know that the work 
being done by USAID and especially their section on mining and 
also PROMINE that is working with the World Bank and the 
Minister of Mines--we know that there are mining sites that 
today are free from conflict, that we have, I think, 52 out of 
82 that are--you do not have children who are being employed. 
And also those minerals that are being exploited are free from 
conflict, and also there is no illegal taxation. So I think 
there is progress going on, and this should be, let us say, 
reinforced. What could be then also is the building capacity of 
the people who are involved in this area. That means the mining 
companies and also civil society.
    Senator Coons. Father, could a partnership between--Mr. 
Prendergast suggested a responsible investment initiative of 
investors from the United States and outside. Could that, in 
partnership with NGOs and with the good work USAID is doing--
could that make further progress toward producing a conflict-
free mineral system?
    Father Muhigirwa. Yes, I would think so because when you 
see what is going on in Katanga, for example, where you have 
people--Freeport McMoRan and when you see what is going on in 
the South Kivu with Banro, the Canadian mining company, you 
have in North Kivu not a single mining company. And this is why 
there is a lot of trouble going on. This is why rebel groups 
are coming in, and they are occupying mainly where you have the 
mines. And so I am thinking that--and I am recommending this--
if you can have major U.S. mining companies coming into North 
Kivu and investing, it will be a way of also bringing peace in 
the region.
    Senator Coons. Thank you, Father.
    I am out of time.
    Senator Flake.
    Senator Flake. Well, thank you. I enjoyed the testimony.
    With regard to the United Nations and their presence, you 
mentioned that MONUSCO's mandate had been changed. Mr. 
Dizolele, what was the mandate and what is it now? How has it 
changed? And with the new mandate, would the United Nations 
have been able to help prevent the situation in Goma?
    Mr. Dizolele. Thank you very much, Senator Flake.
    The mandate has primarily changed. One, it has been 
extended. Typically that is what we do every 6 months. But two, 
the key change is the setting up or the pending setting up of 
an intervention brigade which will use force to go after 
targeted militias. This will be a force that will be made of 
primarily African countries but under the leadership of the 
United Nations. And then the appointment of the special envoy 
for the Great Lakes region, the former Irish President, Mary 
Robinson.
    The challenge, of course, moving forward is that in many 
ways the United Nations always had this mandate to protect 
civilians. It is called Chapter 7 mandate. And over the years, 
they have not been successful in applying it for various 
reasons. We hope that the appointment or the raising up of this 
new force will come with enough backing of the United States 
and the other members of the Security Council so that it 
performs the work that it is supposed to perform. Otherwise, it 
will raise false hope for the people of the region.
    Senator Flake. What precedent do we have with this kind of 
more engaged force? I spent a year in Namibia when UNTAG was 
there in a peacekeeping role. They did well in that role. But 
the notion that they would have had an expanded role to be more 
engaged would have been kind of contrary or certainly without 
precedent from what the United Nations has been involved in in 
terms of peacekeeping efforts. Are there are other areas in 
Africa or elsewhere where we have had this kind of mandate 
given to U.N. forces?
    Mr. Dizolele. Senator Flake, in DRC we have stories of 
success right in DRC. So in 2004, 2003, in Ituri, right just 
above North Kivu, in Orientale province, there was a European 
Union mission called Artemis--Operation Artemis--in Bunia, but 
then you had a minigenocide underway between the Hemas and the 
Lendus fighting each other, and the United Nations was 
paralyzed, could not do anything to help the civilian 
populations.
    So under the leadership of the French, the EU appointed a 
specific--they raised a force called Artemis led primarily by 
the French but also supported by other countries. There were 
special forces from Sweden. I think the United States actually 
lent some support. And within a matter of a month, they cleared 
that section.
    During the elections in 2006, the international community 
was worried about violence in Kinshasa. They raised a force 
called L4, which was led by Germany, and actually kept the 
peace in Kinshasa.
    So in DRC itself, we have precedents of success stories 
that we should look at as you plan to support this new brigade. 
Thank you.
    Senator Flake. Any others want to comment on that? Go 
ahead, Mr. Borello.
    Mr. Borello. Yes. I would like to point another important 
development in the your solution which is a specific mandate to 
arrest people indicted for war crimes--crimes against 
humanity--by an international or a national court.
    But I also would like to say that we welcome the creation 
of this brigade. We think it can be beneficial particularly 
because it comes at the same time as the political process. 
Where we need to be really aware is that a purely military 
solution will fail. So we need the military pressure employed 
by the brigade, hopefully with targeted operation against the 
leadership of these armed groups that would aim to arrest these 
leaders, demoralize troops, and basically encourage them to 
join a DDR program.
    However, we have no real DDR program yet. So one thing that 
the United States could do is to encourage both the Congolese 
and the Rwandan Government for Congolese and Rwandan armed 
groups to set up a new true DDR program that would welcome or 
would be an alternative for these combatants.
    And finally, a real intercommunity dialogue process because 
we also have to be aware that many communities are supporting 
armed groups to further their grievances related to land, to 
their security, and to other issues. And unless we also tackle 
that root cause, we are going to see new armed groups coming up 
every year in the next future.
    Senator Flake. Thank you.
    Father, go ahead and answer that question, and then I have 
one more followup for you. Go ahead.
    Father Muhigirwa. Thank you.
    I would like just to say that there seem to be kind of 
shifts in the U.N. mandate from the intervention--from the 
position to the Intervention Brigade Force.
    And I would add two more to what my colleagues have said. I 
think this brigade will play a major role in the protection of 
civilians, Congolese civilians. I think up to now, MONUSCO has 
done quite a good job, but still there is a lot to be done in 
the protection of the civilians. So one of the roles that this 
special force will be doing is to protect more of the civilians 
in the area where you have conflicts.
    And the second one, which is in the Resolution 2098, is to 
neutralize the M23 and the other rebel groups, as Federico has 
just said. I think that is very, very important to neutralize 
those groups that are really active in the area and that are 
bringing a lot of human rights abuses, threats, and sexual 
violence.
    Senator Flake. Well, thank you.
    I will ask this of Mr. Prendergast. With regard to U.S. 
companies, Father mentioned that it seemed to be a positive 
presence or can be from the presence of U.S. mining interests. 
What has been the history--recent history--and is there 
anything we ought to do here with regard to the actions of the 
U.S. mining interests in the DRC to encourage them or encourage 
them strongly to help out the situation? What is your feeling 
as to their role so far?
    Mr. Prendergast. There has been a great evolution, I think, 
over the last few years. As consumer pressure has increased, 
you have these conflict-free campus initiatives all over the 
United States, sort of the inheritors who have saved our 
foreign invisible children, another student-based movement that 
is focused on electronics companies, as well as faith-based 
groups. So a number of companies have started to respond to 
that pressure. As Father was saying, some responsible 
investment initiatives now have created connections from all 
the way down to mines. So you can get a secure pipeline, supply 
chain of conflict-free, legally mined minerals ending up in our 
computer products, our cell phones, and all the other things 
that we buy. So that is just beginning. Just beginning.
    So that is our hope is that you are going to see expansion 
of that because people that are mining there, the Congolese 
that are mining there are getting fair value, market value for 
what they mine. Those that are selling to sort of rogue Chinese 
traders and others who are undermining and supporting this sort 
of de facto boycott, are getting one-third, one-fourth, one-
fifth of the price that they were getting before. So I think 
good practices in this case are going to incentivize because 
the profits are going to incentivize additional expansion of 
the zones where conflict-free mining can occur.
    Senator Flake. Thank you. My time is up.
    Senator Coons. Thank you, Senator Flake.
    This is very encouraging testimony. It broadly reflects 
what I saw on the ground in Kinshasa, the great work by USAID 
and the beginnings of real progress in conflict minerals.
    I am pleased that Senator Durbin has joined us who played a 
very central role in ensuring that the conflict minerals 
provision was enacted in Dodd-Frank.
    Senator Durbin.
    Senator Durbin. Thank you very much. Thank you, Mr. 
Chairman and Senator Flake and the witnesses who are here 
today.
    I have a couple observations and then a general question.
    On the conflict minerals issue, Mr. Prendergast, I was one 
of the authors with several colleagues on Dodd-Frank calling on 
the Securities and Exchange Commission to set up a mechanism 
whereby we could trace the conflict minerals and to encourage 
American companies to do the same to reduce the likelihood that 
the mining of these minerals would, in fact, finance the 
killing and rape that is going on in DRC. It is unsettling not 
to know whether I am carrying a conflict mineral in my pocket, 
and it is important that we come to a place where responsible 
corporate leaders around the world feel that this is absolutely 
nonnegotiable. They have to deal with this.
    I am saddened that the SEC rule, which took way too long to 
promulgate, is now being challenged in court by the U.S. 
Chamber of Commerce, the National Association of Manufacturers, 
and the Business Roundtable. But I am encouraged by the fact, 
as you have reported here in The Enough Project's report, that 
there are responsible corporate leaders who are voluntarily 
moving forward to rid their companies of conflict minerals.
    We have your publication from August of last year, and I 
would like to ask you, separate and apart from this hearing, if 
there could be an update so that we know which companies are 
making a good faith effort and, conversely, which ones are not. 
So if I could ask you to put that on your list of things to do, 
it would be helpful for us who are very sensitive to this 
issue.
    Mr. Borello, I have been going back and forth on this 
debate about the role of Rwanda in the problems in Kivu 
province in DRC to the point where I think I am wasting my 
time. I concede your point that when we get directly engaged 
with Rwanda, good things seem to happen. That to me is proof 
positive there is some linkage here. But I will not get deep 
into this argument about the role of Rwanda other than to say I 
do believe they play an important part in resolving the 
conflict in DRC, which leads me to another point I would like 
to make.
    I want to talk about M23, but before I do that, I want to 
say a word, a positive word, about Dr. Denis Mukwege, who 
returned to Bukavu after an assassination attempt. He is one of 
the heroes in this conversation, risking his life for the women 
who have been so brutally raped and assaulted in DRC. I have 
met him. I respect him so much. He has testified before our 
committee, and to think that he has gone back after literally 
facing an armed invasion, an attempt to take his life, is just 
an incredible act of caring and faith in the future.
    I also want to add, of course, the Lusis and Heal Africa in 
Goma. Losing Lyn Lusi at one point was terrible, but I know 
that her husband Jo continues the great work that they are 
engaged in.
    Let us go to M23. When I was in Uganda February 19, I met 
with the Minister of Defense, Crispus Kiyonga, who was involved 
in negotiations with M23. And I basically asked him if the West 
was all wrong in its view of M23 because both at the United 
Nations and in measures that I have sponsored in the Senate, we 
have tried to exclude M23 in terms of travel, in terms of their 
assets, in terms of where they can be, branding them as war 
criminals. Now, Mr. Ntaganda stepped forward and surrendered 
himself at this point.
    But I really would like to know if there is a feeling here 
that engaging M23 in negotiations is critical to finally 
resolving the political issues and military issues of this 
region or whether they should be excluded as war criminals. 
There seems to be a real difference of opinion. I do not know 
if anyone here would like to comment on it, but I would like to 
hear your testimony. The floor is open for anyone who would 
like to.
    Mr. Prendergast. I think everyone wants a shot at this one. 
How do you want to go? Left to right or right to left?
    Senator Durbin. Go ahead.
    Mr. Prendergast. Well, gee whiz. Thank you.
    Let me just say one thing. Thank you so much for your 
leadership on that conflict minerals stuff. We will put an 
update to you, Senator, in the near future on the companies. A 
quick note. Motorola Solutions, Philips, are now doing what I 
described, direct supply chains. Apple is working on it. Steve 
Jobs, before his death, was instrumental in changing the 
company's policy on this, and now Tim Cook has carried it 
forward. With respect to the jewelers, Tiffany's has taken the 
lead, not unsurprisingly. So there are beginning to be real 
champions standing up in the corporate sector. I wish Senator 
Flake could be here because I know that he has worked a long 
time with those guys.
    On the M23 question, as Mvemba said, my colleague said, you 
know, every one of these peace processes up till now has been 
exactly what is going on right now in Kampala today, an attempt 
at a back room deal where they are going to reintegrate some of 
these human rights abusers, some of these rebels, back into the 
Congolese Army, making it impossible to reform the Congolese 
Army, creating this kind of a division within the army that 
will break away again 3 years from now when someone else has an 
issue. That kind of peacemaking, that strategy of peacemaking 
has been proven over and over again to not work.
    That is why it is so important for us to have a special 
envoy from the United States to be working in support of the 
building of a comprehensive peace process, where civil society 
is at the table, all the different groups that represent 
constituencies of the Congo are at the table, and the region is 
involved because the region is a major player in undermining 
stability and peace in the Congo and could be a major player in 
helping to support it. It really is such a central issue. I 
want to just leave it there.
    The United States has to be a force for building a 
comprehensive peace process and not allowing these kind of 
side, back room deals, the side deals with one particular 
faction trying to buy them off with positions and 
reintegration, no vetting for human rights issues whatsoever, 
just reinfecting the Congolese Army with a real serious human 
rights problem and just continuing the kind of disempowerment 
of a strong security sector that is needed for the building of 
the Congolese state.
    Senator Durbin. If any others would like to respond.
    Mr. Dizolele. Thank you, Senator Durbin.
    I think, of course, we need to talk to the M23 like we need 
to talk to everybody else. In that sense; yes. But I think 
focusing on one rebel group in a country that has myriad of 
them is a mistake. I mean, if we are talking about Mary 
Robinson being a special envoy, if we are talking about a 
comprehensive peace process, it has to have the country as a 
whole as its objective. You know, just a few days ago, 
Lubumbashi was attacked. So if we give such privilege and 
prominence to groups like M23, which by the way has a long and 
bloody history--before the M23, we had the CNDP. Before that, 
we had the RCD. This is just the pedigree of one group without 
counting the others.
    So I think it will be very dangerous for us to go down this 
road where group X sees how we treated the M23 and they say, 
well, why cannot we do the same thing. So we will just go back 
and fight. An initiative like Dodd-Frank will not succeed if we 
take this path because while we make progress on one front, 
everything will be a rival on the other fronts.
    So I will say to your team we thank you for your 
engagement. We think we should go further. We should do the 
same principle we applied in Liberia and Sierra Leone. One of 
the reasons that the Kimberly process worked was just not 
cleaning the blood out of the diamond, but it was going after 
the bad guys in Sierra Leone and in Liberia, going after 
Charles Taylor for his involvement in Liberia, the Royal 
Marines coming to Liberia to support that. So it has got to be 
a convergence of something.
    So the M23 is not special. If anything, we should make sure 
that they do not have that platform anymore. It undermines the 
framework in Addis Ababa. Thank you.
    Father Muhigirwa. I will just add something on what he 
already has just said. When we see the history of M23, in fact, 
from RCD to CNDP to M23, from the beginning I think it was a 
middle group, and because of, I would say, the killing, the 
rapes, the violation of human rights, it has been known as a 
negative force by the AU and the SADC organizations. And I 
would say that the dialogue going on now between the delegates 
of the DRC Government and the M23, I do not--that is my own 
personal view. I do not expect much from that dialogue because 
when you see carefully the revindication of M23, there were 21 
revindications in the reports from the 23rd of March 2009. And 
when you analyze them, 20 out of 21 revindications have been 
fulfilled on the side of the DRC Government. So in fact, it is 
empty. There is no revindication. And this is why when you see 
the discourse and the speech of the leader of the 23, they are 
moving from one revindication to the other. They even think to 
bring other agenda which were not in the 2009 revindications. 
And so I would say the outlook can be there, but one has to 
take into account all those different type of groups being in 
the area. There are more than 30. I mean, I was in Katanga when 
the Mai Mai, the Katanga started. And so if you start with one 
group, you have to take into account the others. And we know 
that will come out--will be revindication at the political side 
that they will want to be but of the government and also to be 
having grades and promotion in the army. And that has been done 
for many years, and it is not bringing peace.
    Senator Coons. Let me, if I might, break in and we will 
have a chance to continue on that.
    On the specific issue of gender violence, of the use of 
rape as a tool of war, if I could, Father, I would be 
interested in your views. How do we accomplish restorative 
justice? How do we accomplish accountability and the end of 
impunity for gender violence? This is a critical piece of this 
cycle through which all sorts of different rebel groups and the 
FARDC are engaged in violating human rights and in creating an 
environment of impunity and of abuse. How do we achieve justice 
and accountability for gender-based violence?
    Father Muhigirwa. Thank you for this question. Again, I 
would like to praise Dr. Mukwege who is doing a lot in this. 
Three years ago, there was a meeting here on global Congo 
action. He spoke about what was going on about sexual violence. 
And Archbishop of Bukaba talked about peace. And myself--I gave 
a speech on the governance of natural resources.
    And I think one of the key points will be, as I have 
mentioned as a recommendation, to reform the judicial system 
because rape and sexual violence is really evolving in a 
culture of impunity. I do not know a single Congolese who has 
been condemned or jailed because he has raped.
    Senator Coons. And, Father, how has the 2006 sexual 
violence law affected this? Has it had any impact at all, or 
the lack of enforcement, the lack of training and support and 
engagement by the police and the judicial system--is that the 
core problem?
    Father Muhigirwa. Yes, I think that is the problem. We have 
to go to reinforce this, to train, and to install, even 
criminals specialized in this field, as we are doing for the 
trade, for, I do not know, other field. And this is going on 
and it is really growing. As you mentioned, you have more than 
170 or 180 rapes every week. And so the people who are raping--
they feel free. They are not, let us say, troubled. They are 
not afraid of justice. So this will be going on for many years.
    But once justice is doing its job and once we see--because 
this is a matter of education also. When people in Congo in 
communities will start seeing people who have been jailed, that 
will be already a way of educating. And also naming--when you 
are naming someone, when you put him on the front and this is 
really someone who is raping, someone who is condemned by the 
community, I think it will start helping even those who are 
raping the women and the girls. So I think there is a lot to be 
done, but it is still a long way.
    Senator Coons. If I might, Mr. Dizolele, Mr. Borello, what 
role does achieving justice in gender-based violence have in 
achieving accountability and some sort of demobilization 
process for all the different rebel groups from M23, FDLR, 
others throughout the broader region? How critical is achieving 
this kind of justice?
    Mr. Dizolele.
    Mr. Dizolele. Thank you, Mr. Chairman.
    One of the programs that Eastern Congo Initiative is 
involved with is called Access to Justice. And what Eastern 
Congo does is run clinics to give women access to just that, 
justice. This will be the core, if you will, the tipping point 
to end sexual violence. That will be justice because the day we 
go after the bad guys, either through setting up tribunals, 
special tribunals for this where it is a mixed court and others 
by punishing the chains of commands of these various militia 
groups including the FRDC, then we will see that change. Until 
that happens--in fact, the DRC is in dire need of troop 
reconciliation and justice. These are two things that rarely 
come up in discussions like this. But those are key, along with 
the political process, in order for us to see a turning point 
in the development of DRC.
    Senator Coons. So to your point, security sector reform 
cannot just be the reintegration of those who have been bad 
actors who need to be held accountable.
    Mr. Borello.
    Mr. Borello. Yes. Thank you, Chairman.
    The accountability question is really close to my heart and 
to my work. I worked for 10 years specifically on 
accountability in the DRC with the United Nations and with an 
NGO. So it is something I feel very strongly about.
    First of all, on the rebel groups, we have what is known as 
the revolving door for rebel groups, continued integration, and 
the criminals get always the best positions. And that is what 
the M23 is about. If we look at the number of officers formerly 
of CNDP, many of them have not defected, have stayed loyal. Who 
has defected? Those with the worst human rights record, those 
with the criminal smuggling networks that need to protect their 
networks. So I agree with all my colleagues. We have to deal 
with M23 as like with any other rebel group with accountability 
and a DDR program for combatants who have not committed abuses.
    On this global accountability question, I have worked for 
many years with the Congolese judiciary, and there are a lot of 
people in the Congolese judiciary who are brave and competent 
and would like to hold people accountable. However, I have 
heard many times that that general is protected by this other 
general and we cannot go after him, but we can go after this 
guy.
    So the United Nations Human Rights Mapping Report has 
recommended in 2010 the creation of internationalized mixed 
chambers, which means chambers in the judicial system of Congo 
composed by Congolese and international judges, Congolese and 
international prosecutors, and Congolese and international 
investigators that would work together, thus building 
capacities and other resources to the Congolese judiciary. As 
you know, the criticism of the Rwandan and Yugoslavia tribunal 
when they were sitting outside, but at the same time giving the 
judges and the prosecutors that political coverage to go after 
everyone.
    Ambassador Rapp has been leading this effort in the 
international community. Now is the time. There is a law in the 
Congolese Parliament that was almost adopted in 2011. It is the 
time to push for that and to push President Kabila through our 
special envoy to do just that.
    And if you allow me just 1 more minute, I would like to 
thank you and Senator Durbin for the National Defense 
Authorization Act and the provisions on accountability. And our 
own special envoy could identify the names of the people who 
then should be included in this list for sanctions.
    Thank you.
    Senator Coons. Thank you.
    I hear a continuing theme that appointing a capable, high-
level special envoy. Empowering them to continue to engage 
broadly in a regional, meaningful peace process but insisting 
on accountability for gender violence, for war crimes and 
investing in a strategic minerals system that is conflict-free 
could all, in combination, really open up a positive future.
    Senator Flake.
    Senator Flake. Mr. Prendergast, what leverage do we have or 
does anybody have with Rwanda to get them to cooperate here? 
What in their national security interest can they identify to 
cooperate?
    Mr. Prendergast. Well, I think the United States has a 
pretty special relationship or has had a pretty special 
relationship with Rwanda post 1994. I think that President 
Clinton, in the aftermath of the genocide, worked very hard. 
President Bush continued that. The relationship not only was 
national to national but head of state to head of state. The 
Obama administration has tried to do that as well.
    I think the last chapter of the saga of cross-border 
support from Rwanda to armed groups inside Congo in the form of 
this M23 chapter was just overreach, was a bridge too far, was 
a slap in the face of everyone. Having worked so hard for peace 
in Congo, the United States investing almost $1 billion a year 
of humanitarian and peacekeeping, all other kinds of assistance 
into Congo, to have that all jeopardized and undermined and all 
kinds of intelligence leading to that, it was just too much. 
And I think it has affected the relationship quite 
substantially in the short run between Rwanda and the United 
States.
    The leverage, however, is retained in a number of things.
    First, there are tremendous relationships built up over the 
years between people in the Rwandan Government and people in 
the United States Government. That should not be discounted. 
Anyone who has worked in government understands those 
relationships can have a major influence over policy.
    Second, though, I think the stand that the United States 
took, even though it was a small one and a somewhat symbolic 
one, of suspension of certain forms of assistance and then 
working within the World Bank to suspend the budget support to 
Rwanda I think made a very strong statement that business as 
usual, which had been allowed for a long time for many 
reasons--well, we are trying to counter the FDLR and all these 
other reasons--was no longer acceptable. And so I think that 
maintaining that principle and standing for principle on the 
part of the United States that there cannot be interference 
across borders in the affairs of neighbors in the Great Lakes, 
the volatility is just too high as a precondition for 
normalized relations I think is the key point of leverage. And 
it does not always have to be a public one. It can be a very 
important private one, as evinced by President Obama's 
discussions on the phone with President Kagame.
    Senator Flake. Mr. Dizolele, do you see a desire to have a 
good relationship with the United States and the aid that 
follows in connection with that--does that outweigh their 
desire to have a more friendly government on its borders? Or is 
the incentive there? Is it in their national security interest 
to cooperate, aside from relationships or incentives, like I 
said, in terms of aid and whatever else?
    Mr. Dizolele. Senator, you mean for Rwanda.
    Senator Flake. Yes; for Rwanda. I am sorry.
    Mr. Dizolele. Well, it is hard to answer that because only 
Rwandans can really answer that. But if we can look at the 
history, it has been complicated because the Rwandans are not 
forthcoming with the reasons of their involvement in DRC. They 
have used the premise of going after the militias. If that was 
the case, then when you consider the lengthy involvement of 
Rwanda in DRC, which started in 1996, this issue should have 
been resolved a long time ago. So it would have been great if 
Rwanda will come and be much more bolder and say exactly what 
in DRC. Is it because of minerals?
    You know, Germany and France started their cooperation 
after World War II over economics. It was about coal mining. So 
there is actually opportunity for Rwanda to build a great 
partnership with DRC that is not based on this partner military 
approach.
    So we should encourage that and I think we have heard that 
theme today as well. Encourage Rwanda in becoming more 
forthcoming and not playing this game of we are part of the 
solution. Yes, you can be part of the solution, but for the 
last 20 years, they have not really been part of that solution. 
So we need to push them on that economic front as well, have 
the transparency where you are looking at the issues, economic 
interests.
    Thank you.
    Senator Flake. Mr. Borello, quickly on that.
    Mr. Borello. Yes; very quickly.
    Yes; regional economic integration I think is the answer. 
And one idea would be to encourage the World Bank to set up a 
Great Lakes fund that would look at cross-border projects, road 
building, mining, hydroelectric that would create that 
interdependence that is based on legitimate trade and 
legitimate economic interests that would then create a strong 
disincentive from continuing to support armed groups because 
that would disrupt those economic activities.
    Senator Flake. Father, you had mentioned that electoral 
reform is needed in the Congo. What incentive there does Kabila 
have to move ahead? Obviously, that might affect his ability to 
perform in the next election. So what are our limits there in 
terms of encouraging electoral reform? How receptive will the 
government be?
    Father Muhigirwa. I think there is the necessity to call 
for this electoral reform because it is needed and we are 
waiting for it since we had only regime Presidential and 
legislative elections. And we have not yet had the provincial 
and the local elections. And if we go back to the history, even 
in 2006 election, we had only Presidential and provincial 
elections. So Presidential, legislative, and provincial 
elections. So up to now, we have not yet had local elections. 
That means the gradual democracy, local, I would say, 
governance in terms of democracy have not yet been really 
rooted or grounded into the local population.
    So the push would be to say, OK, there is an urgency of 
doing that. And as I was saying in my statement, the first 
thing to do is to push quickly this reform of the electoral 
commission. We know what has happened with the November 2011 
elections, and we know that there should be and there should be 
a reform of the electoral commission, the CENI. And also the 
composition of the members of the CENI--we cannot have an 
independent electoral commission with four members of the 
majority political parties and three from the opposition party. 
It cannot be independent. And this is why there is a move and a 
push from the civil society to have more civil society people 
in the electoral commission, and I think that could bring--I 
will say that it will be less politicized--the electoral 
commission--and it could go forward.
    So I think that the law, the electoral reform law, has been 
passed by the Parliament. It is now on the table of President 
Kabila. It went to the Court of Supreme Justice. So it is in 
conformity of the Constitution, and it is waiting for the 
promulgation by the President. And what the Catholic bishop 
said or suggested to the President is to have more civil 
society people in the actual composition of the electoral 
commission, and I think that would help.
    Senator Flake. I hope we can do that. Typically those who 
win elections do not believe there is any need for electoral 
reform. It is those who lose who do. So it is a difficult 
subject I know.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Flake.
    If I might, I have a last question I would like to ask the 
whole panel to speak to. Part of the purpose of my visit to 
Kinshasa was to urge President Kabila to travel to Addis and to 
sign the Peace, Security and Cooperation Framework and to 
actively participate. That happened not as a result of my 
visit, I know, but that happened.
    What is it that the United States and, more broadly, the 
international community can be doing to support this agreement 
and to ensure that the peace process that should follow, the 
negotiations should follow are inclusive, transparent, 
meaningful, and actually move us toward a real peace process?
    Several of you have referenced that the previous efforts at 
peace have been rushed, have been militarized, have been short-
term, have not addressed the underlying reasons for conflict. 
And we have discussed at length gender violence, rapes and 
sexual violence, conflict minerals, the repeated challenges to 
the region, DRC's failures of governance, Rwanda's 
interventions, all the different things that contribute to 
sustaining decades of horrible conflict in the region.
    What are the things the United States can do now that will 
make the biggest difference in ensuring that this peace process 
is different, that this peace process works and it addresses 
the underlying causes of conflict? If you might, just from 
right to left. That may be our closing comments from each of 
the witnesses.
    Mr. Prendergast. Thanks very much again for the thoughtful 
questions.
    I think two things for the United States.
    First, it is the envoy when, not if, that person gets 
appointed, they help support Mary Robinson and the key actors 
in the Great Lakes to create a new forum, a comprehensive forum 
that addresses some of these interstate problems. That does not 
really exist. Francis Dangler has come here before, the South 
Sudanese diplomat, and said what is not said is what divides. 
And these real serious economic issues--I am going to get to 
this point in a second--are underlying issues between the two 
states and security issues between the three states actually, 
Uganda, Rwanda, and Congo, need to be addressed and there needs 
to be external support and facilitation for those new 
agreements to operationalize what this framework says.
    But I wanted to double back again and pound another point 
home, if I can. The biggest incentive for peace I think that 
exists for both Rwanda and Congo and for Uganda, for that 
matter--the biggest incentive for those folks, the leaders in 
those countries to move toward a peace process--and this is 
where the United States holds a lot of cards and has not been 
playing any of them--is to promote sustainable and responsible 
investment, bringing the companies together, the private 
sector, bringing the civil society, the NGOs together and 
bringing those governments together to talk about, well, what 
would the risks and opportunities be for responsible investment 
in eastern Congo. How can we create policy incentives that will 
help support responsible investment to allow for these 
countries.
    The engine for development of the Congo is obviously 
natural resources, but that is also the engine of development 
for future economic growth in Rwanda. It is cross-border. It is 
like Mvemba said. The economic--and Father said--the economic 
support through transportation, through cross-border trade, 
electricity, all these kinds of issues, but more importantly 
through the exploitation of resources. The private sector has a 
huge role to play in that. American private sector, European 
private sector, bringing them together and helping to support a 
responsible investment initiative.
    Senator Coons. Thank you, Mr. Prendergast. Thank you for 
your leadership and for your testimony. Thank you for that 
insight.
    Mr. Dizolele.
    Mr. Dizolele. Thank you, Mr. Chairman, and thank you again 
for hosting us today and for your continued interest.
    I think I started by saying that the case is not all lost, 
especially when you look at the role of the civil society in 
DRC. We believe at Eastern Congo Initiative that our grantees 
and our partners in the region will not know peace until the 
political crisis is solved. And it is imperative for us as the 
United States to look at Congo as a whole. We work in eastern 
Congo, but the problem that we are facing in eastern Congo are 
symptoms of the larger problem. And civil society across the 
country has been working at this. So encourage the United 
States to continue putting pressure on our actors in this 
framework of peace to live up to the obligation they have 
agreed to live up to.
    Congo is a big country with nine neighbors. So there is 
obviously a problem if continuously the only two neighbors that 
are at loggerheads with the Congolese causing all this death 
that we have been talking about, this kind of calamity. So we 
need to put pressure on those neighbors, continued pressure. 
They have maybe some legitimate concerns. But like Father was 
saying earlier, most of these concerns are not so clear and, to 
use the vernacular, are bogus. So we need then to support the 
Congolese people in diffusing the crisis, and the crisis will 
be diffused--start being diffused not only with security sector 
reform but with the political reform. We need to hold the 
elections, municipal and provincial, to help reestablish some 
legitimacy to the process. And then the Congolese can take care 
of what they need to take care of.
    We need to push our diplomatic mission in Kinshasa to step 
up to the plate. Over the years, traditionally Kinshasa had 
been a very important posting for diplomats. We used to send 
our best diplomats there. People like Melissa Wells, people 
like Robert Oakley, they serve in Congo. But we have seen over 
the years that the diplomatic post has not received the same 
attention. So to support this process that we are talking 
about, we need to raise that power that the U.S. Embassy has 
and start acting like it is representing the United States.
    So I thank you again for your support, and I think that 
will be enough from me. Thank you.
    Senator Coons. Father Muhigirwa.
    Father Muhigirwa. Thank you, Chairman, for the question.
    I would add only two things.
    The first one will be to implement the DRC Relief, Security 
and Democracy Promotion Act in section 102 which says that the 
United States is called to support the security reform, 
including the army, military, and justice system and the police 
force in DRC. I think if that is implemented, it will help to 
bring up a lasting peace.
    The second recommendation would be in the Resolution 2098, 
it asked the DRC Government to create the rapid reaction force. 
I would recommend that the United States help the DRC 
Government to create, to establish this rapid reaction force.
    Thank you.
    Senator Coons. Thank you, Father.
    Mr. Borello. Thank you, Mr. Chairman.
    The framework requires the creation of clear benchmarks, 
both for the implementation of regional and for national 
commitments. I think the United States should support Ms. 
Robinson in developing such clear benchmarks with the 
participation of local civil society. So Ms. Robinson should be 
encouraged to go during her trips to the region to really 
consult civil society on the development of these benchmarks. 
And then we need to help her to have the governments of Congo, 
Rwanda, Uganda, and others accept these benchmarks. And 
finally, we have to monitor compliance with such benchmarks and 
be prepared to impose consequences for lack of compliance.
    Let me give you just one example. We, at Humanity United, 
are trying to think for Ms. Robinson some of these benchmarks. 
For example, the FDLR Rwandan rebel group. What could these 
benchmarks be? Well, Rwanda should publish the list of people 
suspected of genocide from 1994, thus making it clear to the 
FDLR who is wanted and who is not. Then the Congo should 
publicly denounce its own army's alliance with the FDLR and 
arrest and prosecute its own officers if they are found. 
Sensitization efforts with the FDLR should be ramped up, et 
cetera, et cetera. These are clear and concrete benchmarks that 
could be agreed and the United States could help and then their 
implementation could be monitored.
    And finally, we need to make sure that the United Nations 
appoints the right team to support Ms. Mary Robinson. She 
cannot do it alone, as we know. And so we need to be sure that 
proper experts and the appropriate number of experts are 
appointed to her team.
    Thank you very much for your attention.
    Senator Coons. Thank you very much. I would like to thank 
all four of our witnesses, those who have traveled long 
distances and those who have come from nearby, for your 
engagement, your service, your leadership, and your insight on 
these issues.
    I would like to thank Senator Flake and Senator Durbin who 
joined us today. And I very much look forward to working 
together to address these pressing and important issues in the 
very near future. Thank you very much.
    We will leave the record open for a week for any members of 
the committee who were not able to join us who wish to submit 
questions for the record.
    With that, this hearing is hereby adjourned.
    [Whereupon, at 11:28 a.m., the hearing was adjourned.]

              Additional Material Submitted for the Record


Paper by Anthony Gambino and Stephen Weissman submitted for the record 
                          by Federico Borello

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Eastern Congo Initiative Report Submitted for the Record 
                          by Mvemba Dizolele 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                  <all>

</pre></body></html>
